<html>
<title> - INVISIBLE CASUALTIES: THE INCIDENCE AND TREATMENT OF MENTAL HEALTH PROBLEMS BY THE U.S. MILITARY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  INVISIBLE CASUALTIES: THE INCIDENCE AND TREATMENT OF MENTAL HEALTH 
                     PROBLEMS BY THE U.S. MILITARY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2007

                               __________

                           Serial No. 110-111

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE
46-429 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2007.....................................     1
Statement of:
    Kilpatrick, Dr. Michael E., Department of Defense, Deputy 
      Director, Deployment Health Support, accompanied by Dr. 
      Jack Smith, Acting Deputy Assistant Secretary of Defense 
      for Clinical and Program Policy; Dr. Antonette Zeiss, 
      Department of Veterans Affairs, Deputy Chief Consultant, 
      Office of Mental Health Services, accompanied by Dr. Al 
      Bates, Chief Officer, Office of Readjustment Counseling; 
      Dr. Thomas Insel, Director, National Institute of Mental 
      Health; Major General Gale Pollock, Army Surgeon General; 
      and Dr. John Fairbank, Duke University, member, Institute 
      of Medicine Committee on Veterans' Compensation for Post-
      Traumatic Stress Disorder..................................    60
        Fairbank, John...........................................   102
        Insel, Thomas............................................    91
        Kilpatrick, Michael E....................................    60
        Pollock, Major General Gale..............................   100
        Zeiss, Antonette.........................................    80
    Smith, Army Specialist Thomas; Army Specialist Michael 
      Bloodworth; Richard and Carol Coons, parents of Army Master 
      Sergeant James Coons; and Tammie LeCompte, wife of Army 
      Specialist Ryan LeCompte...................................    16
        Bloodworth, Michael......................................    17
        Coons, Richard and Carol.................................    18
        LeCompte, Tammie.........................................    33
        Smith, Thomas............................................    16
Letters, statements, etc., submitted for the record by:
    Coons, Richard and Carol, parents of Army Master Sergeant 
      James Coons, prepared statement of.........................    22
    Fairbank, Dr. John, Duke University, member, Institute of 
      Medicine Committee on Veterans' Compensation for Post-
      Traumatic Stress Disorder, prepared statement of...........   105
    Insel, Dr. Thomas, Director, National Institute of Mental 
      Health, prepared statement of..............................    92
    Kilpatrick, Dr. Michael E., Department of Defense, Deputy 
      Director, Deployment Health Support, prepared statement of.    63
    LeCompte, Tammie, wife of Army Specialist Ryan LeCompte, 
      prepared statement of......................................    36
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Followup questions and responses.........................   118
        Prepared statement of....................................     4
    Zeiss, Dr. Antonette, Department of Veterans Affairs, Deputy 
      Chief Consultant, Office of Mental Health Services, 
      prepared statement of......................................    82


  INVISIBLE CASUALTIES: THE INCIDENCE AND TREATMENT OF MENTAL HEALTH 
                     PROBLEMS BY THE U.S. MILITARY

                              ----------                              


                         THURSDAY, MAY 24, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m. in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Maloney, Cummings, 
Kucinich, Davis of Illinois, Tierney, Clay, Watson, Yarmuth, 
Braley, McCollum, Hodes, Murphy, Sarbanes, Welch, Davis of 
Virginia, Platts, Issa, Sali, and Jordan.
    Also present: Representative McCaul.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Karen Lightfoot, 
communications director and senior policy advisor; Sarah 
Despres, senior health counsel; Brian Cohen, senior 
investigator and policy advisor; David Leviss, senior 
investigative counsel; Susanne Sachsman, counsel; Molly 
Gulland, assistant communications director; Earley Green, chief 
clerk; Teresa Coufal, deputy clerk; Matt Siegler, special 
assistant; Caren Auchman, press assistant; Zhongrui ``JR'' 
Deng, chief information officer; Leneal Scott, information 
systems manager; David Marin, minority staff director; Larry 
Halloran, minority deputy staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; Keith 
Ausbrook, minority general counsel; Ellen Brown, minority 
legislative director and senior policy counsel; Charles 
Phillips, minority counsel; Grace Washbourne and Susie Schulte, 
minority senior professional staff members; John Cuaderes, 
minority senior investigator and policy advisor; Patrick Lyden, 
minority parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; Benjamin Chance, 
minority clerk; and Ali Ahmad, staff assistant and online 
communications coordinator.
    Chairman Waxman. The committee will please come to order.
    Today Congress is scheduled to go home for the annual 
Memorial Day recess. This is a time for special reflection on 
the sacrifices made by generations of American soldiers and for 
giving special thanks to our brave troops fighting in Iraq and 
Afghanistan.
    Today's hearing is about this new generation of heroes and 
the invisible injuries that will afflict many of these brave 
men and women. We are going to examine startling new figures 
about the number of troops that are suffering from post-
traumatic stress disorder and other mental illnesses, and we 
will focus on whether the Defense Department and the Veterans 
Administration are meeting the need of providing basic levels 
of care.
    This committee has a longstanding interest in the welfare 
of our troops. Long before the American public knew about the 
problems at Walter Reed, our Ranking Member Tom Davis was 
asking questions, writing letters, and holding hearings about 
problems that the Guard and Reserve troops encountered 
obtaining health care and military benefits.
    John Tierney, the chairman of our National Security 
Subcommittee, held the first hearing at Walter Reed, and he 
continues to take the lead as our committee examines problems 
with the military's health care system.
    The most recent statistics on the number of soldiers 
suffering from mental illnesses caused by the war are 
staggering. Dr. Zeiss, the VA's top psychologist, will testify 
today about 100,000 soldiers that have already sought mental 
health care, while Dr. Insel, the Director of the National 
Institute of Mental Health, predicts that many more will return 
from Iraq and Afghanistan with post-traumatic stress disorder.
    Recent figures from the Defense Department indicate that up 
to 40 percent of soldiers will report psychological concerns. 
With almost 1 million soldiers and Marines having served in 
Iraq or Afghanistan during the course of this war, hundreds of 
thousands of troops will need screening or treatment for 
combat-related mental illnesses such as clinical depression, 
anxiety disorder, and post-traumatic stress disorder [PTSD].
    Yesterday I received a memorandum from the Los Angeles 
County Department of Mental Health about the impact of combat-
related mental health problems in my District and the 
surrounding area. According to the Mental Health Department, 
some Los Angeles area veterans' service providers are reporting 
PTSD incidence rates for returning veterans that are as high as 
80 percent. The Department has also described case studies of 
area veterans who returned from Iraq with mental health 
problems. One involved a 24 year old veteran who served two 
tours of duty in Iraq but came home with PTSD and saw his life 
enter a downward spiral of substance abuse, homelessness, and 
crime. I would like to make this memo part of the hearing 
record.
    As these accounts demonstrate, we are facing a public 
health problem of enormous magnitude. While often invisible, 
these mental health injuries are real, and, if left untreated, 
they can devastate soldiers and their families.
    We will hear today from witnesses who experience combat-
related mental illnesses, themselves, or through a family 
member. Their stories are heartbreaking, and they remind us 
that behind each statistic lies a soldier and a family 
struggling to cope.
    I want to particularly thank the soldiers and their 
families for being here today. I know that the stories you have 
to tell us are not easy. This will be difficult to relive. But 
they will help us to understand the magnitude of the problem 
and, I think, make a true difference.
    In our second panel we will hear from the Defense 
Department and the Veterans Administration about their 
readiness for the tremendous challenges that these mental 
illnesses will pose to the system. I know these agencies are 
working hard to address these problems, but I remain concerned 
they are not ready for the impending crisis. Indeed, the 
Defense Department's Mental Health Task Force has flatly 
stated, ``The military system does not have enough resources or 
fully trained people to fulfill its broad mission of supporting 
psychological health in peacetime, and fulfill the greater 
requirements during times of conflict.''
    One of my greatest concerns is that the problem is getting 
worse, not better. Mental health professionals have identified 
three important factors that put our troops at risk of 
returning with mental problems: longer deployment times, 
shorter rest periods at home, and multiple deployments. And 
they say that all three are now happening at once, creating a 
growing epidemic of mental health injuries.
    Just last month, Secretary Gates announced he was extending 
tours of Army soldiers deployed in Iraq to an unprecedented 15 
months. Some units have found that their time at home has been 
cut to as few as 9 months. Many of our troops are now on their 
second or even third deployment. There are even disturbing 
accounts of soldiers being ordered back to Iraq despite severe 
mental and/or physical injuries. These are dangerous practices 
that imperil the health of our troops.
    We have sent hundreds of thousands of troops to Iraq and 
Afghanistan and we can never thank them enough for their 
service. As we approach Memorial Day, we need to recognize that 
it is a moral imperative that we do everything possible to 
prevent and treat their injuries, whether physical or mental, 
and give these soldiers and their families the support and care 
they need when they return home.
    I hope this oversight hearing will help make this happen.
    [The prepared statement of Chairman Henry A. Waxman and 
referenced information follow:]

[GRAPHIC] [TIFF OMITTED] T6429.001

[GRAPHIC] [TIFF OMITTED] T6429.002

[GRAPHIC] [TIFF OMITTED] T6429.003

[GRAPHIC] [TIFF OMITTED] T6429.004

[GRAPHIC] [TIFF OMITTED] T6429.005

[GRAPHIC] [TIFF OMITTED] T6429.006

    Chairman Waxman. I now want to call on the ranking member 
of the committee, Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman, and thank 
you for holding this hearing. Let me also thank the soldiers 
and their families for sharing their stories with us today. It 
is going to be very, very helpful to this committee.
    We also welcome some of our students from Thomas Jefferson 
High School for Science and Technology in Fairfax, as well, for 
being with us.
    We convene to discuss the inevitable, in many ways normal, 
human response to that inhuman of all activities, war. 
Psychological damage suffered by some warriors has been noted 
throughout the violent history of our species. Civil war 
doctors named it soldier's heart. Since then it has been called 
shell shock, battle fatigue, combat stress, and post-traumatic 
stress disorder.
    So the questions we confront today are both timely and 
timeless as we ask how our Nation prevents, detects, and treats 
the invisible but no less real wounds of modern warfare.
    Thanks to medical advances and proactive military health 
programs, we have a greater ability to screen for risk factors, 
both before and after deployment, and provide diagnosis and 
treatment options for that subset of service members who suffer 
neurological damage or symptoms of mental trauma. The former 
may emerge as the signature casualty of this era, as superior 
leadership, training, and equipment produce unparalleled combat 
survival rates, while the survivors come home suffering 
traumatic brain injuries in unprecedented numbers.
    Recent studies conclude up to 19 percent of returning 
combat veterans suffer some type of neurological damage or 
mental illness. Not surprisingly, similar studies find longer 
deployments and multiple tours correlate to much higher 
incidences of brain injury, post-traumatic stress disorder, and 
other mental health problems.
    National Guard members may also be uniquely vulnerable to 
combat trauma effects. That means thousands of Americans 
returning from Afghanistan, Iraq, and elsewhere need care for 
symptoms and syndromes that can be treated, but if left 
undiagnosed could produce permanent health impairments.
    So today we ask: are returning warriors screened and 
informed of the warning signs of mental injuries? How many seek 
the care they need? Are relevant, research-based treatments 
available to them? How do we sustain the mental resilience of a 
force engaged in the global struggle against terrorism?
    Ironically, one of the steepest barriers to diagnosis and 
treatment of combat trauma injuries appears to be 
psychological. The stigma of being labeled a head case in the 
military culture prevents many from seeking help. It allows 
unenlightened officers to ignore the problem, threaten exposure 
as a malingerer, or counsel the sick to simply gut it out and 
drive on like good soldiers.
    Less than half of those identifying a mental disorder on 
recent post-deployment surveys sought related treatment. Many 
cited stigmatization among the reasons they would not seek 
care. And those who do seek help often face institutional and 
bureaucratic hurdles in a system much more in tune to treating 
injuries of the body than the mind.
    As we say in our investigation into problems at Walter 
Reed, the military health care system is overburdened and often 
lacks adequate resources to provide quality care. Both the 
Department of Defense and Veterans Affairs Departments are 
struggling to shift fundamental health care paradigms and the 
treatment of middle-aged and elderly adults to meet the needs 
of 18 to 30 year olds as the number of Iraq and Afghanistan 
veterans grows.
    The success of those ongoing health reform efforts at DOD 
and VA will enhance our ability to assess and meet the mental 
health needs of active and Reserve members at home and abroad. 
That capacity is critical to assure the continued readiness of 
U.S. forces to meet global security demands.
    Mr. Chairman, this is an important set of issues, and we 
thank you for convening this hearing. Every American we send 
into combat brings something of that experience back. We owe 
every one of them our respect and our gratitude and a 
compassionate embrace for any who come home bruised or broken 
in body or soul. If the war in Iraq ended tomorrow, our 
obligation to understand the mental battles of current and 
future warriors would not. Mindful of that enduring debt, I 
hope the testimony of our witnesses today will shed needed 
light on the mental stresses encountered by today's warriors 
and how we can better heal the inner wounds of modern warfare.
    Thank you.
    Chairman Waxman. Thank you very much, Mr. Davis.
    Before we call on our witnesses and introduce them, I want 
to ask unanimous consent that Representative McCaul be 
permitted in this hearing. Without objection, we are pleased to 
have you with us.
    A couple of our witnesses are Mr. McCaul's constituents, 
and we would like to call on you to introduce them, if you 
would, and then we will proceed.
    Mr. McCaul. Thank you, Mr. Chairman, and good morning to 
you and Ranking Member Davis. I want to thank you for holding 
this hearing on this very important issue of mental health and 
our soldiers returning home.
    It is an honor for me to introduce to you Richard and Carol 
Coons, constituents of my District from Katy, TX.
    Today, among other things, you will hear the story of their 
heroic son, Master Sergeant James Coons, who served our Nation 
for more than 15 years. Despite his unconditional service, the 
United States, in my judgment, has yet to show the memory of 
Master Sergeant Coons or his family its appreciation or respect 
for that service.
    As their Representative in Congress, I and my staff have 
spent the past 2\1/2\ years working on behalf of the Coons 
family to find answers to their questions about their son's 
death, many of which the Army, the Department of Defense, and 
the administration have yet to answer. Through my office, the 
Coons have repeatedly asked for a complete set of their son's 
medical records. The family has yet to receive them.
    We have repeatedly asked that the Army provide Richard and 
Carol with all of their son's personal effects, and 
specifically Master Sergeant Coons' notebooks. The family has 
yet to receive them. We have asked that the Department of Army 
change the date of Master Sergeant Coons' death, which is 
listed as July 4, 2003, to the more accurate date of either 
July 1st or 2nd, as indicated by the Washington, DC, medical 
examiner's report. The Department of Defense has yet to do so.
    Most of all, this Nation has failed the Coons by not 
watching over their son the way he watched over all of us and 
our families for 16 years as a soldier in the Army.
    Some time between July 1st and July 3, 2003, Master 
Sergeant Coons took his own life, a victim of post-traumatic 
stress disorder, on the grounds of Walter Reed Army Medical 
Center. Despite repeated pleas to several different people at 
Walter Reed, no one went to check on Master Sergeant Coons 
until his death on July 4, 2003.
    Mr. Chairman, my office has sent dozens of letters, 
followed up with hundreds of phone calls and e-mails, and to 
this very day the Department of the Army, Department of 
Defense, and the administration has yet to correct any of their 
mistakes or even apologize, despite overwhelming evidence of 
their failure.
    Chairman Waxman. Mr. McCaul, what you are telling us is 
really very disturbing and I want to hear from them and the 
other witnesses, as well.
    We want to welcome you to our panel today. I thank you very 
much for the introduction.
    Mr. McCaul. Well, I would like to close, Mr. Chairman, by 
saying that I hope we can turn this tragic experience that my 
constituents have gone through and experienced into a positive 
one in working together in a bipartisan fashion to address this 
very important issue, and I want to thank you for holding this 
hearing.
    Chairman Waxman. Thank you. We fully agree with you.
    We hadn't suggested opening statements because we wanted to 
go right to the witnesses, but if any Member wishes to take a 
2-minute opening, we will be glad to recognize the Members.
    Ms. Watson.
    Ms. Watson. Thank you so much for this hearing. I will take 
1 minute to introduce a young man, Todd Bowers, who is sitting 
in the second row to my left. He is the Director of Government 
Affairs. He met with the Domestic Policy Subcommittee this 
morning to talk about these issues that we are covering in this 
hearing. I do hope that he will then submit a statement 
according to your remarks that you made, Mr. Bowers, to our 
committee.
    I just also want to add, Mr. Chairman, that I am carrying a 
piece of legislation, H.R. 1853, the Hosea Medina Veterans 
Affairs Police Training Act, and it is a bill that would force 
the Department of Veterans Affairs to better prepare its police 
force to interact with patients and visitors at the VA medical 
facility who suffer from mental illness. He went through a very 
traumatic affair when he was found on the floor in the VA 
hospital. More on that at another time, but I would hope that 
all Members would support the Hose Medina bill. It gets to the 
issue that we will cover today.
    Thank you so much for the time.
    Chairman Waxman. Thank you, Ms. Watson. We will hold the 
record open to receive a statement so that we can have that as 
part of our record.
    I would like to now call on Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. And I want to thank the 
families for being here today.
    I requested the Chair, because many of us have been working 
on case work in which we have had a very similar response from 
the armed services when trying to get answers for our soldiers' 
families. Maybe the Chair and the ranking member would 
entertain a way to survey our congressional offices, keeping 
confidentiality always foremost in our minds, to find out just 
how pervasive this is, because it is quite evident we cannot 
ask the Department of Defense to turn over this information. I 
think the Chair and the ranking member are going to find out 
that these families are representing just a drop in the well of 
how many of our service men and women have been treated.
    Thank you, Mr. Chair.
    Chairman Waxman. Thank you, Ms. McCollum.
    Mr. Braley, did you wish to be recognized?
    Mr. Braley. Yes. Thank you, Mr. Chairman and Ranking Member 
Davis, for holding this important hearing.
    This issue is very personal to me. My father enlisted in 
the Marine Corps when he was 17, served on Iwo Jima, came home 
and raised a family. When I was in high school he suffered two 
severe bouts of depression that nobody in our family could 
understand. This weekend I will be making my 26th annual trip 
to his grave in a tiny cemetery located in the country near 
York, IA.
    Eleven years after he died, my brother, who works at the VA 
hospital in Knoxville, IA, was approached by a patient who 
recognized his name tag and told him about an incident that 
happened in 1946 right after my father returned from the war, 
totally unsolicited, where my father was working on a threshing 
crew and became overcome by the heat, was taken to the shade, 
and proceed to relate a flashback experience when one of his 
best, best friends was vaporized by a shall burst on Iwo Jima.
    That is why I am so proud that this hearing is being held 
today, and I want to make a commitment to the witnesses who 
have taken time to appear before us that this body will do 
something to help get answers to the troubling questions that 
you have posed for us.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Braley.
    Any other Members wish to be recognized for a 2-minute 
opening? Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Certainly the Wounded Warriors Assistance Act that passed 
yesterday is incredibly important to what we are looking to do 
for, in fact, the men and women who put their life on the line. 
I believe, though, that we have to do one other thing in this 
committee, and that is that we have to seek very hard to be 
able to put the war in Iraq separate from, in fact, what we are 
doing here today.
    I am looking forward to this hearing and the work we do as 
a committee to recognize that the best work we do is the work 
we do separate from the other committees and what often goes on 
on the floor. I look forward to testimony here today, and I 
look forward to working with the chairman to try to get beyond 
the things we disagree on and take an issue we agree on like 
dealing favorably with those who have not made a political 
statement but, in fact, made a patriotic statement on behalf of 
our country, and work together to find good solutions for them.
    I yield back.
    Chairman Waxman. Thank you very much, Mr. Issa.
    Other Members? Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I wasn't going to say anything, 
but after I heard Mr. Issa I must say this. I sit on the Armed 
Services Committee and I also sit on the Readiness 
Subcommittee. I cannot separate what I heard about the Coons 
family and what I heard about Pat Tillman and so many others.
    We have to have in this country trust, and that trust is 
earned. I think that when things like, on the one hand, I sit 
on Armed Services where we are trying to make sure that our 
soldiers are given every single thing they need, rested, 
trained, equipped, but then on the other hand we come to this 
committee and we are trying to figure out why they don't get 
what they need if they are injured, and something very 
fundamental that has nothing to do necessarily with military or 
committees, it is truth.
    When the Coons family--and I am so interested to hear their 
testimony--cannot get the truth, there is a breach of trust. 
And when there is a breach of trust, that is a major problem. 
That is why I recommend the book The Speed of Trust, because it 
talks about how when we stop trusting, either with regard to 
integrity, or we stop trusting with regard to competence, then 
everything slows down and our country slows down.
    So we cannot just separate. Mr. Issa is correct, we must 
find solutions, but first we have to figure out why we are not 
getting answers to questions with regard to wonderful Americans 
who stand up for their country, who shed their blood, their 
sweat, and their tears to be a part of making this country the 
very best it can be.
    So I yield back and thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Cummings.
    Mr. Welch, did you wish to be recognized?
    Mr. Welch. Just two points. I thank the chairman and the 
ranking member.
    Point one, thank you in advance for coming in and sharing 
your story. It is hard to do, and Members of Congress 
appreciate it, the people of America appreciate it, and your 
loved ones appreciate it. We thank you very much.
    Second, the cost of the war has to include the cost of 
caring for the warrior, and we know that. That is why we 
resisted exceeding the recommended cuts in the VA budget and we 
are proposing to put the money we need into Defense health care 
and the VA health care. Your coming in and testifying is 
helping us do the right thing. It is helping the American 
people understand what is really going on. So thank you very 
much.
    Chairman Waxman. Thank you, Mr. Welch.
    Does any other Member seek recognition? Mr. Kucinich.
    Mr. Kucinich. Mr. Chairman, thank you for holding this 
important hearing.
    As is becoming more and more obvious, the effects of war 
are permanent. It is beyond tragic that the soldiers lucky 
enough to survive the war run the risk of health problems that 
range from inconvenient to completely disabling or even fatal. 
Many of these problems are difficult to diagnose because they 
do not fit neatly into our clean medical categorizations. When 
they are hard to diagnose, disability benefits are hard to get. 
The awarding of benefits is delayed as the scientific 
literature catches up over many years to the reality of the 
pain experienced by the veterans on this daily basis.
    I would ask the Chair to include my entire statement in the 
record.
    I would just like to conclude by saying that the crushing 
burden of these health problems being born by our veterans is 
tragic enough, especially when you consider they were sent to 
war under false pretenses. But to abandon them after they have 
served their duty is inexcusable.
    I know that our Members look forward to hearing what we can 
do to better serve our veterans at this hearing, and I thank 
the Chair very much.
    Chairman Waxman. Thank you very much.
    Are we ready to proceed to the witnesses?
    I want to introduce three other witnesses in addition to 
Mr. and Mrs. Coons, who have been introduced to us already.
    Mrs. Tammie LeCompte is the wife of Army Specialist Ryan 
LeCompte, who has completed two tours of duty in Iraq and is 
now stationed at Fort Collins, CO. The LeComptes are members of 
the Lower Brule Sioux Tribe of South Dakota.
    Army Specialist Thomas Smith is a native of Lexington, NC. 
He joined the National Guard in 1999 and went on active duty in 
2003. He was deployed to Iraq in late 2005 and served in the 
Ramadi area. He is currently stated at Fort Benning, GA.
    Specialist Michael Bloodworth is a Kentucky National 
Guardsman. Before being deployed to Iraq in March 2006, 
Specialist Bloodworth studied science at Murray State 
University. He is currently being treated at a traumatic brain 
injury clinic at Walter Reed Army Medical Center.
    We are pleased to have all of you with us. Thank you so 
much for being here.
    It is the practice of this committee that all witnesses 
that appear before us take an oath, and so I would like to ask 
each of you to stand and please raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will show that each of the 
witnesses answered in the affirmative.
    We have the written statements that have been prepared for 
the record, and we will have that in the record in its 
entirety, but we would like--we won't be strict on this, but we 
are going to run a clock that will indicate when 5 minutes are 
up, and if you could possibly do it that would be a good signal 
to try to summarize the rest of the testimony.
    Specialist Smith, why don't we start with you if that is 
OK.

  STATEMENTS OF ARMY SPECIALIST THOMAS SMITH; ARMY SPECIALIST 
 MICHAEL BLOODWORTH; RICHARD AND CAROL COONS, PARENTS OF ARMY 
MASTER SERGEANT JAMES COONS; AND TAMMIE LECOMPTE, WIFE OF ARMY 
                    SPECIALIST RYAN LECOMPTE

                   STATEMENT OF THOMAS SMITH

    Mr. Smith. Chairman Waxman, Congressman Davis, and 
distinguished members of the committee, thank you for inviting 
me to testify here today.
    I, Specialist Thomas Smith, entered active duty in October 
2003, and in the beginning of 2004 I was sent to 3rd Brigade 
Combat Team. My MOS is 88 Mike. That is a transportation 
specialist.
    In August 2004 I was injured during a training. I hurt my 
back. I continued to seek help for this injury for the next 2 
years. I was told that I would receive a P-3 profile in late 
2006. I did not actually receive this profile until my Medical 
Board proceedings for my psychiatric problems were initiated. 
On May 22, 2007 I went to check on the status of my medical 
proceedings and the case worker told me that she had found my 
P-3 profile for my back then.
    The date on this profile was November 27, 2006. Even with 
this non-deployable profile, I deployed to the National 
Training Center and was almost deployed to Iraq. I had already 
endured this injury during the first deployment. I deployed to 
Iraq in January 2005. Once in Kuwait I was switched from HHC-
130 Infantry to Bravo Company 130 Infantry. While in Bravo 
Company 130 Infantry my duties were, as an 11-Bravo, to drive 
Bradley fighting vehicles, foot patrols, and guard duty. During 
this time, I served in Bacoo, Iraq, and also in Ramadia, Iraq.
    After redeployment to the States I went through a brief 
mental health evaluation. It was explained that I might soon be 
experiencing some adverse reactions to the war such as 
nightmares, flashbacks, etc., but that they should go away and 
that was perfectly natural.
    In September 2006, I was still experiencing symptoms, to 
include nightmares, flashbacks, excessive anger, irritability, 
and anxiety problems. These problems were and still continue to 
affect my daily life.
    In September 2006, I called the Army One Source Hotline to 
get help. A representative set me up with an appointment with a 
psychologist in the community. This psychologist diagnosed me 
with PTSD, an anxiety disorder, and also depression. I 
continued to see a psychologist over the next few months. I 
reported to my immediate chain of command that I was seeking 
help from a psychologist.
    In January 2007 I was deployed to the National Training 
Center, where I received no treatment for the month I was 
there. During my time there, I was not directly involved in the 
training, and yet still had adverse reactions to the sound of 
explosions in the distance.
    After redeployment to Fort Benning after the National 
Training Center, I made an appointment to see my psychologist 
immediately. During our session she expressed her concern and 
referred me to Martin Army Hospital to seek more help. I then 
gave copies of the letters of concern from my psychologist to 
my chain of command.
    During my first visit with the psychologist at Fort Benning 
at Martin Army Hospital, the psychologist also expressed his 
concern for my mental health. The psychologist also diagnosed 
me with PTSD. After several visits with him he wrote a letter 
of recommendation to my chain of command. The letter of 
recommendation said that I should not be allowed to have a 
weapon and be left behind for a few months for further 
treatment before redeploying me to Iraq.
    My company commander was contacted and he also visited my 
psychologist. My psychologist gave him a copy of this letter 
and expressed his concern for my mental health. My company 
commander said that he would take the issue to the colonel. I 
was not told of the colonel's decision until the day before 
deployment. Just hours away from the manifest, on March 9, 
2007, I received a phone call from a sergeant in my platoon 
stating that the colonel said that I was deploying and I had to 
have my bags in at midnight that same night.
    At this time I was already on my way to the hospital to 
have a talk with my psychologist. When I got there, and after 
speaking with him, the decision was made to put me in inpatient 
care. I was immediately sent to Anchor Hospital in Atlanta, due 
to the fact that there was no room for me at Martin Army.
    The psychologist at Anchor Hospital also diagnosed me with 
PTSD and depression and an anxiety disorder. I was put on 
medication at Anchor Hospital upon getting there. I spent 
almost a week there until room was made for me at Martin Army 
Hospital. I was then shipped into the mental health floor at 
Martin Army hospital, where I was also diagnosed with PTSD and 
depression. I spent almost another week there and was released 
to outpatient care.
    I am still continuing my care and medication, and, although 
it is a daily struggle, I am currently receiving excellent 
care.
    That concludes my statement. I am looking forward to your 
questions.
    Chairman Waxman. Thank you very much, Mr. Smith.
    Mr. Bloodworth.

                STATEMENT OF MICHAEL BLOODWORTH

    Mr. Bloodworth. Thank you, Mr. Chairman, Representative 
Davis, and distinguished guests of the committee. I would like 
to extend my gratitude for being able to come here and share my 
experiences.
    I am Specialist Michael Philip Bloodworth, and I was 
deployed to Iraq with the Kentucky Army National Guard, Charlie 
Company 2nd, 123rd Armor. I have been mobilized since November 
2005, when I was trained for 6 months in Camp Shelby, and in 
March 2006 my squadron reached its area of operations in Iraq, 
where our mission was to provide convoy security.
    During the course of the 11\1/2\ months that I was in 
country, I logged thousands of miles running convoys in places 
such as Tikrit and Baghdad. I was also a victim of five 
separate IED exposures and multiple small arms ambushes during 
the course of that time span.
    On January 16, 2007 I was injured as a result of an IED 
blast where I lost consciousness, and have since then suffered 
other symptoms of TBI, post-concussive syndrome, and PTSD. 
These injuries led to my medevac to Germany, where my further 
care continued here at Walter Reed Army Medical Center.
    I arrived at Walter Reed Army Medical Center President's 
Day weekend, which is the same timeframe that the Washington 
Post made its story about Walter Reed Army Medical Center. 
Within the first few days I was in-processed into the system 
and was beginning to receive some care for my traumatic brain 
injury and PTSD, along with the physical problems with my left 
knee that I have been having.
    I have been in the best of hands since my arrival here. 
Even though care has been slow, the people have been 
consistently trying to stay with me and make sure that every 
day, even though it is a struggle, I am on two feet and making 
it to my appointments and making a recovery. Even through the 
changing of hands through commander at the Walter Reed Army 
Medical Center with the Warrior Transition Brigade, everything 
has continued on track. The new leadership has definitely taken 
charge and well adapted to the needs of the soldiers and tried 
to better the system.
    My treatment at Walter Reed Army Medical Center has been 
focused, first and foremost, on my traumatic brain injury, and 
second my symptoms of PTSD, such as night terrors, flashbacks, 
and inability to sleep unless on medication.
    I have been involved with occupational therapies, a 
treatment for my TBI, and the current treatment for my PTSD has 
been seeing a psychiatrist at least twice a month and a steady 
regime of sedatives or narcotics to make me sleep at night.
    I have been taking my treatment 1 day at a time. I try to 
remain on track through this difficult time. Through the aid of 
everyone at the traumatic brain injury clinic and the aid of my 
psychologist and the support of my platoon sergeants and squad 
leaders I am making progress. Progress is slow, but it is 
better than anything.
    I have definitely needed help along the way, but it is 
getting better.
    This concludes my opening remarks. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Bloodworth.
    Mr. and Mrs. Coons.

              STATEMENT OF RICHARD AND CAROL COONS

    Mr. Coons. Good morning, Chairman Waxman, Ranking Member 
Davis, and members of the committee. Carol and I would like to 
thank you for giving us the opportunity to provide you 
information on the treatment of our son, Master Sergeant James 
C. Coons.
    There is nothing that can be done to help Jimmy now; 
however, with our information and that of the others present 
here today, change can and must be made in hopes of providing 
the proper care for our returning heroes so they may enjoy a 
healthy and productive life.
    Our story: Thursday, February 13, 2003: ``Don't sweat the 
small stuff. This is my life. I am a soldier. With that comes 
an inherent amount of responsibility and self-sacrifice. All of 
my adult life has been spent as a soldier. I knew many years 
ago what I was getting myself into. I would not change 
anything. Yep, I'm dog tired and my body hurts, but there is 
not another place on the face of the planet earth that I want 
to be right now. What I do now is not for me; it is about the 
American flag. Some folks don't have a clue. They curse it. 
They spit at it. They burn it. Well, one day I will be buried 
with and under it. This is my generation's war, and if you are 
a soldier then it is your profession, the profession of arms. 
Now rest easy and tell everyone not to worry. I will find my 
way home again one day.''
    These words were from my son, a U.S. soldier, a proud 
soldier who loved his country, his God, and then his family. 
Master Sergeant James Curtis Coons was a true soldier through 
and through all of his life. At a very early age he was 
fascinated with anything military. Pass a truck hauling a tank 
or any military equipment and he would get excited. Drive by 
the Port of Beaumont, and you would have to stop so he could 
watch the gear being loaded for overseas shipments. Pass an 
Army surplus store, well, we had to stop. Who would think a 5-
year-old kid would eat C-rations? He had to have a parachute 
hung above his bed. He took the harness off of it and tried to 
jump out of a small tree. Well, he did, and we had to cut him 
out of it.
    My son, James, was born on April 3, 1968, in a small town 
in Texas. He died in July 2003, under the care of Walter Reed 
Army Medical Center in Washington, DC. Thirty-five years old, a 
military man happily married to a wonderful wife who had two 
beautiful daughters. Sixteen years of military service on a 
fast-track promotion and slated to attend sergeant major's 
academy at Fort Bliss in El Paso, TX, in August 2003.
    What happened to my son? Does anyone really know? We began 
to wonder, and I wonder why, if they know, won't they tell us. 
What we did know is this: Jimmy was doing his tour of duty in 
Iraq. He was always rock steady. He was strong willed and a 
good spirit all of his life, but in April and May 2003 his e-
mails and phone calls from Iraq took on a completely different 
tone, a tone that alarmed us.
    On June 12, 2003, in an e-mail to his mother he said, 
``This place has really put a beating on me. I found myself 
struggling to understand and deal with my own personal demons. 
I don't know what started this downward fall I am in. I am just 
ready to come home. I love you. Jimmy.''
    This was the time he started complaining about not sleeping 
and seeing images of a dead soldier he had seen in the morgue. 
For some unknown reason, that image remained burned in his 
mind, an image he saw over and over again in his sleep and 
would wake him.
    He sought help for the fatigue and anxiety he was 
experiencing and was only given medication. No one counseled 
him. No one sought to find out the underlying reason. Just take 
these sleeping pills. No followup, no more concern, just 
another soldier with a sleep disorder. No one cared enough to 
find out why.
    The medicine did not help. On June 17, 2003, James called 
his OIC and asked for help. Captain Singleton and another 
soldier raced to his quarters, where they had to break in to 
find him lying semi-conscious. He was then rushed to a medical 
facility at Camp DOHA for evaluation and treatment. He was 
diagnosed with PTSD, post-traumatic stress disorder.
    During his 3-day stay at the medical facility he was 
unwilling to discuss his situation with medical staff. On June 
21, 2003, he arrived in Landstuhl as an outpatient. He left on 
a medevac flight on June 29, 2003, arriving at Walter Reed Army 
Medical Center some time around June 30, 2003. He was evaluated 
upon his arrival, and the evaluation did not find that he was a 
threat to himself or others. He had a scheduled appointment the 
next day and was released to his own custody with instruction 
to followup at the outpatient clinic. He was sent to his room 
alone, had appointments set up. He never made one of those 
appointments. No one ever made an attempt, even after our 
calls, to check on him.
    Records indicate that James checked into his room at the 
Malogne House. He never left his room again.
    The next 4 to 5 days were a total nightmare. Carol and my 
daughter-in-law began calling Walter Reed the next day trying 
to find Jimmy. We have documentation of repeated calls to 
various departments trying to verify that Master Sergeant Coons 
had arrived at Walter Reed. No one had any information. They 
did have a room registered to a Master Sergeant James Coons, 
but no one could tell us if he was actually on the property.
    During this time we were told that this was a holiday 
weekend and it would be difficult to get someone to check his 
room. Policy will not let us go into the room until 3 days if 
there is a do not disturb sign on the door.
    I have since found in part of the investigation papers a 
letter from Base Commander Kiley saying that rooms would be 
entered daily to check on the well-being of guests. It is not 
dated, so I don't know if this was prior to James or 
afterwards.
    We were passed around and around. A call to the hospital's 
clergy, a captain told us, ``He's a senior noncommissioned 
officer. I cannot get into his business.'' Calls to the 
military police, and no one responded to us.
    Finally, on July 4th someone took our calls seriously and 
went to check his room. We were still calling and now were 
really getting the run-around. They know something, they say, 
but they can't tell us until the Army officially notifies his 
wife. Well, thank God a worker at the Malogne House finally had 
enough compassion to tell my wife on the night of July 4th that 
James had passed away. The next day my daughter-in-law was 
notified of Jimmy's death at approximately 0630, and we were 
notified around 9 a.m.
    Now the story gets interesting. Our casualty officer was 
not informed of the cause of death, and we were not being told 
a cause of death, either. We would not learn of it until after 
Jimmy had been buried. That is not quite true. We learned about 
it the day before we buried Jimmy.
    No matter what we did, we were met by a stone wall. One 
bureaucrat or officer after another would say that they did not 
know, or would pass us to someone else who, in turn, would pass 
us on to another person. No one, it seemed, knew or were 
willing to tell us the actual cause of our son's death. We are, 
to this day, still unsure of his actual date of death.
    James' body was returned to us on July 13, 2003, and was 
buried on July 15, 2003. During the visitation on Monday, July 
14th, the funeral home received a call from a retired colonel 
in the area saying that he had knowledge of how my son had died 
and he was on his way to the funeral home to inform the family. 
Our casualty officer, who still had not seen a death 
certificate, got a copy of the death certificate faxed to him, 
and he had the unfortunate task of taking me outside, telling 
me how my son died. I then had to gather my family into a room 
and tell them how James died.
    We, Carol and I, are here today to relate our experience to 
you in hopes that some other soldier who is having problems 
won't be ignored, that he or she will be given the best care 
and treatment available.
    This is a great country. Its greatest asset is our men and 
women in uniform. They deserve and we expect that they would 
receive the absolute best medical care this country can provide 
to its service people to whom those parents have entrusted 
their children and to whom this country turns to for protecting 
us and our country's values in times of need.
    Don't sweep these people under the rug. Out of sight, out 
of mind. Not my problem. That is just not acceptable. They 
deserve so very much more. We, the parents who entrust our 
children to you, deserve more.
    Thank you.
    [The prepared statement of Mr. and Mrs. Coons follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.007
    
    [GRAPHIC] [TIFF OMITTED] T6429.008
    
    [GRAPHIC] [TIFF OMITTED] T6429.009
    
    [GRAPHIC] [TIFF OMITTED] T6429.010
    
    [GRAPHIC] [TIFF OMITTED] T6429.011
    
    [GRAPHIC] [TIFF OMITTED] T6429.012
    
    [GRAPHIC] [TIFF OMITTED] T6429.013
    
    [GRAPHIC] [TIFF OMITTED] T6429.014
    
    [GRAPHIC] [TIFF OMITTED] T6429.015
    
    [GRAPHIC] [TIFF OMITTED] T6429.016
    
    [GRAPHIC] [TIFF OMITTED] T6429.017
    
    Chairman Waxman. Thank you very much, Mr. Coons.
    Mrs. Coons, did you want to add anything, or was your 
husband speaking for both of you?
    Mrs. Coons. No, sir.
    Chairman Waxman. OK. Thank you.
    Mrs. LeCompte.

                  STATEMENT OF TAMMIE LECOMPTE

    Mrs. LeCompte. Thank you, Mr. Chairman and Members here 
today.
    My name is Tammie LeCompte, the proud wife of Soldier 
Member Specialist Ryan LeCompte from the Lower Brule Sioux 
Tribe out of South Dakota.
    Ryan has been in the Army for 7 years and has served two 
full tours in Iraq. He had plans for a full military career and 
wanted to serve 20 years. Even though that seems impossible 
now, Ryan has many proud memories while serving this Nation. 
But today he only feels shame and embarrassment, mostly because 
Ryan's leaders did not understand his war injuries, and that is 
part of what has led to my being here today.
    Ryan willingly put his life on the line for all of us, and 
the only thing we ask in return is understanding of his war-
related conditions--no harassment from leaders who don't 
understand PTSD; proper and tailored mental health care; proper 
tracking, screening, and diagnosis of traumatic brain injury; 
and, finally, an appropriate discharge from the military if his 
condition does not improve.
    In 2004, after Ryan returned home from his first tour from 
Iraq, he filled out his post-deployment health assessment form 
and indicated that he was having difficulties readjusting. He 
did not receive a referral to mental health. Then again in 2005 
he filled out a pre-deployment health assessment form and asked 
for a referral to mental health. He did not receive this 
referral and was, instead, redeployed to Iraq in June 2005.
    These unfortunate circumstances have impacted my family 
tremendously. When Ryan returned from his second tour in Iraq, 
he was a changed man. He again filled out his post-deployment 
health assessment form and again indicated that he was having 
difficulty readjusting. After Ryan's mandatory 90-day followup, 
he received an emergency referral to mental health; however, 
nobody followed up with him. Ryan needed help and could not get 
it.
    This period of time was very difficult for me and my 
family. The changes in Ryan were apparent, and I wanted to do 
everything I could do get him the help that he needed.
    In August 2006 Ryan unfortunately received a DUI and was 
referred to the Army's substance abuse program. During this 
period, Ryan was never diagnosed with PTSD, regardless of his 
repeated requests for help.
    Finally, on March 22, 2007, Ryan was diagnosed with chronic 
post-traumatic stress disorder. Ryan's command claims that they 
were not notified of this diagnosis until May 18, 2007.
    In April 2007, the abuse that Ryan received from his 
command worsened his condition to the point that his civilian 
mental health care provider referred him to Cedar Springs for a 
72 hour acute care facility. At this point I was completely 
discouraged.
    I am not a PTSD expert, but let me tell you how PTSD and 
the lack of care impacted my family.
    As a wife, it was hard to make sense of these changes with 
Ryan. I didn't understand the anger and the sudden outbursts. I 
didn't understand the lack of support from his chain of 
command. And I couldn't explain to my children why Daddy was 
the way he was--detached, distant, and someone that I didn't 
know at all.
    My children were afraid. They were constantly asking why 
Ryan was acting the way he was, why he was yelling at me, or 
why was he always going away. It has even gotten to the point 
where my 4 year old daughter, Savannah, has made up songs about 
her Daddy being gone. She doesn't understand. I don't 
understand. And Ryan's leaders don't understand.
    I was desperate and I was exhausted. These two binders on 
the desk represent the effort that I have made on behalf of my 
husband.
    Finally, when I contacted Veterans for America, they were 
able to reach out to Congress, the mental health care providers 
at Evans Army Community Hospital, and the civilian clinicians 
at Cedar Springs, who indicated that Ryan needed to be in more 
comprehensive, individually tailored inpatient facility. 
Because of the VFA's pressure, the waiting time to get Ryan 
into an appropriate dual-track PTSD/substance abuse program 
with the VA went from 4 weeks to 3 days. Finally, Ryan is in an 
intensive program; however, he is living with patients 
primarily from the Vietnam War Area. DOD must create similar 
programs for the soldiers from our newest wars.
    I am encouraged to hear from Veterans for America that 
Major General Hammond has recognized that mistakes have been 
made at Fort Carson and that major changes within the Army as a 
whole are required.
    I also commend Brigadier General Tucker, who has been 
tasked by the Army to be the bureaucracy buster, that he has 
made a commitment to make the four following changes: That the 
Army records TBI and TBI-like events in the soldier's medical 
record immediately after the event, and that we screen for 
these events in the post-deployment health assessment and 
reassessment; that the Army institutes a leader teach program 
designed to teach Army leaders at all levels about TBI and PTSD 
so that they know how to identify symptoms in their soldiers, 
refer them to the appropriate care, and know how to lead and 
take care of these soldiers; that the Army develops a method 
that improves the commander's awareness of the soldiers in his 
or her unit with TBI and PTSD so that he can ensure the 
soldiers diagnosed with these conditions are appropriately 
taken care of; and institute a requirement that the medical 
facility review the physical exams of all soldiers undergoing 
administrative separation proceedings to ensure that no medical 
condition requiring a Medical Evaluation Board is overlooked.
    I am encouraged when I hear leaders in the Army make these 
statements, because it means that another family won't have to 
suffer the way our family has suffered in understanding these 
illnesses.
    Thank you.
    [The prepared statement of Mrs. LeCompte follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.018
    
    [GRAPHIC] [TIFF OMITTED] T6429.019
    
    [GRAPHIC] [TIFF OMITTED] T6429.020
    
    [GRAPHIC] [TIFF OMITTED] T6429.021
    
    Chairman Waxman. Thank you very much, Mrs. LeCompte.
    Before we start asking questions, I think the students were 
going to leave, and so I thought I would just give them the 
signal. This is a good time.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Thank you for that good testimony.
    Chairman Waxman. Well, I thank you, each and every one of 
you, for a very important and powerful testimony that you have 
given us from your own experiences, from your family's 
experiences, what these illnesses have meant.
    Oftentimes, post-traumatic stress disorder and other mental 
problems are completely invisible. People may not even realize 
what is happening to them. The system that is supposed to take 
care of them may not realize what is going on, or they may not 
be equipped to deal with it.
    Mr. and Mrs. Coons, your son was certainly a remarkable 
man. He would have been doing today what you are doing. While 
he stood up and fought for his men, you're doing the same 
thing, because it is not just your son, it is a lot of other 
people's sons, husbands, fathers that experience what is going 
on. I know he would be very pleased and proud of the fact that 
you are carrying that message to us today, so thank you so much 
for being here.
    Specialist Bloodworth, it sounds like you are getting the 
care you need. Do you feel that you are being responded to and 
getting help that you need?
    Mr. Bloodworth. Yes, I do, Mr. Chairman. At first, no. At 
first, I really felt the system was kind of lax, but once they 
determined what the problem was they have been doing a good 
job. It was getting to the point and getting to the 
determination of what the issue was, Mr. Chairman.
    Chairman Waxman. Yes. Specialist Smith, your experience has 
been very different. You were not diagnosed, or when you were 
diagnosed they still wanted to send you back to--was it Iraq or 
Afghanistan?
    Mr. Smith. It was back to Iraq, Mr. Chairman.
    Chairman Waxman. Back to Iraq. And you tried to tell the 
military that you weren't ready to go back. Could you tell us 
more about that, what happened with you there?
    Mr. Smith. Yes, Mr. Chairman.
    I made several attempts, taken letters of concern from my 
psychologist to my chain of command, even as far as my 
psychologist contacting my company commander personally saying 
this guy is not ready. He typed up a memorandum stating that I 
should not be allowed to be around weapons and that he just 
needed more time to work with me, and he believed that I would 
be ready to go again. And, according to what I was told, they 
were not willing to give me that time to get better. So 
following his recommendations and what we thought was best for 
me, I went into inpatient care so that I could start receiving 
medications and getting the proper treatment.
    Chairman Waxman. So the medical system was helping you, but 
then the rest of the military system didn't seem to care what 
the medical system was doing? They wanted to send you back to 
Iraq, even though you weren't ready to go back?
    Mr. Smith. Yes, Mr. Chairman.
    Chairman Waxman. Yes. Let me ask both specialists, a lot of 
men don't know what is happening to them. They know they are 
not sleeping well. They are experiencing all the symptoms you 
have described. And they may not understand what is happening. 
But is there a stigma that some of the men feel about even 
going and asking for help? Is this one of the problems we are 
seeing?
    Mr. Smith. Yes, Mr. Chairman. Even when I began seeking 
treatment, I kept it separate from the military. I went through 
Army One Source and started seeing a psychologist off post 
because I didn't really want anybody at work to know what was 
going on with me.
    Chairman Waxman. Mr. Bloodworth.
    Mr. Bloodworth. Yes, Mr. Chairman, actually, when I was in 
country we had a group there, the Combat Stress Team, at Camp 
Anaconda, and they had initially done a briefing with every 
company and squadron that was coming in and said, We are here 
for you. If you have any issues, come talk to us. Immediately 
after those doctors and specialists had left, you got the 
feeling that people were snickering, like people don't need to 
go see them. It is definitely a stigma, and especially in 
country because it deters from the mission and it deters from 
your mission.
    Chairman Waxman. As I understand it, the way the Army finds 
out is putting out a questionnaire. Can you tell us, anybody on 
the panel, about those questionnaires and about whether that 
really gets to the issue?
    Mr. Bloodworth. Mr. Chairman, I filled out one of those 
surveys during mid-deployment because the Combat Stress Team 
decided it was necessary to do that on our post. Very few 
questions. I think it was at least 10 questions. Do you feel 
like you are a threat to yourself and others? Do you feel like 
you want to hurt anyone? Questions like that. And you filled it 
out with your squad, and then your squad leader would read it, 
and then he would send it to the platoon sergeant, and so it is 
back to that stigma again.
    Chairman Waxman. Yes.
    Mr. Bloodworth. You don't want to let anybody know there is 
a problem.
    Chairman Waxman. Well, I can see that stigma and the 
reluctance, but then the question is what does the Army do once 
you tell them you are having these problems. The Defense 
Department convened a Mental Health Task Force to study the way 
the armed forces are dealing with this PTSD and other mental 
health matters, and that task force put out a draft of its 
findings, and it concluded, ``The current efforts fall 
significantly short in treating mental health problems, and the 
military system does not have enough resources or fully trained 
people to fulfill its broad mission of supporting psychological 
health.'' So, in effect, they concluded our system is in crisis 
and that soldiers who are suffering from PTSD and other mental 
health problems are not getting the care they need.
    Mr. and Mrs. Coons or Ms. LeCompte, you certainly didn't 
find the system receptive and able to deal with the problems 
your son was having.
    Mr. Coons. No, sir, Mr. Chairman, they didn't. We do have 
some documents that James did complete prior to being air-
evaced out and asking him these type questions: what would you 
say your health is? Do you have any medical or dental problems? 
Are you currently profiled for light duty? Have you sought or 
intend to seek counseling for care of your mental health?
    I mean, he answered these and it was submitted. He said he 
had food poisoning, which is, I think, part of our issue is 
when this originally happened with James this stigma with him 
being a soldier, being a career soldier, he felt like he let 
people down. He felt like his career was going to be in 
jeopardy now with sergeant major academy coming up, and some of 
his peers said, well, we can log this as food poisoning and/or 
heat stress. So when he's filling out his forms, I mean, that 
is what he's putting down on them.
    Chairman Waxman. And the system just failed him completely?
    Mr. Coons. Well, this was back in 2003, also, Mr. Chairman.
    Chairman Waxman. Maybe we know more. Maybe the system knows 
more to respond. I hope.
    Mr. Coons. I hope so.
    Chairman Waxman. I hope so.
    Ms. LeCompte, tell us what your thoughts are about how this 
system has been working for you and your family?
    Mrs. LeCompte. Well, in that situation on, like, the 
questionnaires that they were discussing, my husband's 
situation, he filled out his and he was flagged not to go over 
or back, and receive immediate help, and it was ignored. If it 
says refer to mental health and they don't have the staff or 
whatever it might be to help these soldiers, I mean, it really 
doesn't do any good to fill out these questionnaires.
    Chairman Waxman. Thank you.
    My time is up and I want to recognize Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Specialist Bloodworth, let me ask you how would you rate 
the quality of care you have been receiving at Walter Reed? 
Have they made progress now on your treatments?
    Mr. Bloodworth. They are making progress, sir. Actually, I 
am slotted to go on the community health care organization back 
in my home State within the next month, which means that they 
don't feel that I will at any point need to be an inpatient and 
I can receive my care at home through civilians or the VA.
    Mr. Davis of Virginia. I don't know. I have a rough idea on 
statistics, but could you guess a percentage that just don't 
come forward because of the stigma approached to this? Is there 
talk in the barracks or guys saying something's wrong but I'm 
just afraid to step forward? Either one of you have any feel 
for that?
    Mr. Bloodworth. Yes, sir. Overseas you see it because 
people see combat or people just being separated from home and 
you see everybody becoming depressed and everybody coping with 
it, but the ones who are having a hard time coping with it, you 
can see that they want help, and you have that stigma. I 
wouldn't know a percentage, but I would say it affects many 
people in the unit.
    Mr. Davis of Virginia. Is there informal talk about it but 
people just don't want to come forward?
    Mr. Bloodworth. Yes. I mean, there are people who have been 
saying I wish I had somebody to talk to somebody who wasn't my 
squad leader, somebody who wasn't in the platoon, somebody that 
didn't see you every day.
    Mr. Davis of Virginia. Seen as a sign of weakness, isn't 
it, if you are in the military to kind of come forth?
    Mr. Bloodworth. Exactly.
    Mr. Davis of Virginia. Specialist Smith?
    Mr. Smith. I would definitely say so. You can tell the 
people that are having the problems, because ones that have 
come forward, people will gather around them and talk to them 
more about it. But I definitely believe there are a lot of 
people that are scared to come forward. I couldn't say a 
percentage, either, but I believe there are a lot of people 
that are afraid it is going to hurt their career to step 
forward.
    Mr. Davis of Virginia. Military is a macho culture. I mean, 
that is just part of it. I went through my active duty and OCS 
and everything else, and I understand it. It is seen as a sign 
of weakness, isn't it?
    Mr. Smith. Yes, sir.
    Mr. Davis of Virginia. How is the care you are receiving 
now?
    Mr. Smith. The care I am receiving now is excellent, sir. 
They are really taking care of me, making sure that I get 
everything that I need.
    Mr. Davis of Virginia. Mrs. LeCompte, what support networks 
are available now through the military or the VA to families 
and children of soldiers who are suffering from mental illness? 
Have you seen any?
    Mrs. LeCompte. What was that first part again?
    Mr. Davis of Virginia. What support networks are available 
through the military or the VA? Have you found any that are 
available for situations like yours?
    Mrs. LeCompte. Well, my husband is in Sheridan, WY, right 
now at a VA facility. As far as the treatment there, I mean, it 
really doesn't----
    Mr. Davis of Virginia. I'm talking about support groups for 
you.
    Mrs. LeCompte. Well, there is a support group through Evans 
Army Hospital; however, there are only certain timeframes to 
attend.
    Mr. Davis of Virginia. So it is there, but it is really not 
adequate?
    Mrs. LeCompte. It is not beneficial. Correct.
    Mr. Davis of Virginia. Have they given you any type of 
education on your husband's illness? Have they sat down and 
talked about what is involved and what you can expect and what 
the prognosis is?
    Mrs. LeCompte. No, sir.
    Mr. Davis of Virginia. How about resources available to 
your children to better understand their father's illness? The 
same thing?
    Mrs. LeCompte. No, sir.
    Mr. Davis of Virginia. We all hear from witnesses, and we 
are going to hear this on our second panel, untreated emotional 
trauma arising from combat situations leads to a host of other 
problems, including depression, suicidal thoughts, substance 
abuse. When was your husband officially diagnosed with post-
traumatic stress disorder?
    Mrs. LeCompte. As far as Evans, in March 2007 was when they 
finally put it on paper. They would call it everything else but 
what it is.
    Mr. Davis of Virginia. And during the time that he was 
deployed, nothing?
    Mrs. LeCompte. Nothing.
    Mr. Davis of Virginia. No diagnosis or anything else? Was 
he afraid to come forward, do you think, and admit that he was 
having some issues?
    Mrs. LeCompte. I knew that, in a way, yes, I would say he 
was afraid to come forward, but he would still try to seek 
help, to get some help for this. But when he comes forward, a 
lot of the members of the chain of command, they ridicule these 
soldiers and just not do what they should to make sure these 
soldiers are taken care of.
    Mr. Davis of Virginia. Thank you.
    Mr. and Mrs. Coons, I just want to thank you for sharing 
your son's story with us. You don't know how many times this is 
repeated across when people are afraid to come forward 
sometimes and talk about it in a public setting. I know it is 
not easy to do. I hope that we can honor your son's life by 
acting on this, understanding it better, and trying to ensure 
that it doesn't happen again and take steps. I just want to 
thank you. I think the story speaks for itself. We just 
appreciate you coming forward.
    Thank you, Mr. Waxman.
    Chairman Waxman. Thank you very much, Mr. Davis.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To all our witnesses, I thank you all for being here.
    To Mr. and Mrs. Coons, Mr. Coons, you said that your son 
and others in matters of this nature should not be swept under 
the rug. I promise you that we will do everything in our power 
to make sure that does not happen. We thank you for being here.
    We also thank Specialist Smith and Specialist Bloodworth 
and Mrs. LeCompte for your testimony.
    To Specialists Smith and Bloodworth, as I was listening to 
the questions about stigma, I said to myself this must not be 
the easiest thing to do. It will probably be on national 
television with this testimony. That says a lot for you.
    Back to Mr. and Mrs. Coons, and to all of you, I believe 
that one of the reasons why Specialist Smith and Specialist 
Bloodworth are getting the kind of treatment that they are now 
getting is because of people like you who stood up and said 
that there were problems earlier, and now we are seeing better 
treatment.
    Specialist Smith, we have been told that soldiers with 
injuries, both mental and physical, are being sent back to 
fight in Iraq against their doctor's orders, and you testified 
to that. Just to followup on the chairman's questions, in fact, 
back in March you had recently returned from traveling with 
your unit to the National Training Center in Fort Irwin, CA, to 
participate in a pre-deployment training exercise. During that 
time you were at the training center, I am told that you 
experienced a disturbing incident during which you attacked a 
fellow soldier; is that correct?
    Mr. Smith. Yes, sir. I had been having really bad 
nightmares and stuff, reactions to the mortars that they were 
setting off in the distance, and it just so happened about 2 
a.m. one night a fellow soldier came walking in the tent, and 
my bunk was right next to the tent, and it was right around the 
same time that was happening, and I jumped up and grabbed him 
and slammed him up next to the tent. It was a pretty scary 
incident because if I had had a weapon or something, who is to 
say that I would not have actually hurt this guy.
    Mr. Cummings. So this was just in March?
    Mr. Smith. In January, sir.
    Mr. Cummings. OK. Was that part of the reason that you and 
your doctors did not think that you should return to Iraq?
    Mr. Smith. Yes, sir. Upon returning from that, I 
immediately saw my on-post psychologist and that is when she 
said that I needed to seek more help and get medications, and 
that is when she referred me to on post, and that is when the 
psychologist on post had made the recommendation that I not be 
deployed and not have weapons.
    Mr. Cummings. And did you share your doctor's letters with 
your unit commanders?
    Mr. Smith. Yes, sir, I did. My unit commander was even 
contacted by the psychologist and he had actually sat down and 
talked to my unit commander and gave him a copy personally.
    Mr. Cummings. Now, do you have any idea why your commander 
would have wanted to deploy you, even though your doctors felt 
that you were not fit for deployment? Go ahead.
    Mr. Smith. My company commander actually went to the 
colonel. I don't know which colonel. I don't know if it was the 
squadron colonel or if it was the brigade colonel, but he told 
me that he went to the colonel with the letters. He was 
actually fighting for me not to go.
    Mr. Cummings. Yes. And can you tell us, based on your 
doctor's instructions, what did you do to avoid being deployed 
to Iraq for a third time under the conditions that you just 
described?
    Mr. Smith. Whenever I went and sat down with my doctor, we 
discussed some things, and I told him that I would rather kill 
myself than to see and experience the things that I had been 
through when I was over there last time. I was not mentally 
healed and not prepared to go through this kind of thing again.
    Mr. Cummings. And you knew that?
    Mr. Smith. Yes, sir.
    Mr. Cummings. Do you still feel that way?
    Mr. Smith. No, sir. The treatment that I am getting now and 
with the medications and everything, it is really helping. I 
mean, I am a lot better now.
    Mr. Cummings. Well, we are glad that you are better.
    Do you think other soldiers go through the same extreme 
measures, or did any of them just return and fight injured? I 
mean, do you know of situations?
    Mr. Smith. Yes, sir. I know of several other people that 
were also going through the same procedures as me, and I also 
know several others that were actually deployed. There is 
actually some that have been sent back. They were deployed over 
there and then sent back because of this investigation.
    Mr. Cummings. These soldiers, do you think they are able to 
perform their duties, I mean, based on what you know? I know 
you are not a doctor. Do they put themselves and other soldiers 
at risk, do you think?
    Mr. Smith. In my opinion, yes, sir. Nobody wants anybody 
with a mental condition or a physical condition trying to fight 
on the front lines with them.
    Mr. Cummings. Did you want to say something, Specialist 
Bloodworth?
    Mr. Bloodworth. No, sir.
    Mr. Cummings. Again, I want to thank you all for your 
testimony. Hopefully we will be able to use this testimony to 
help others. I thank you all so much.
    You are right, Mr. Coons, this is a great country, and we 
are going to do our best to make it an even better country.
    Thank you.
    Chairman Waxman. Thank you, Mr. Cummings.
    Mr. Issa, would you want to yield some time?
    Mr. Issa. Sure. I yield 1 minute to the gentleman.
    Mr. McCaul. Thank you. I just want to thank my 
constituents, the Coons, for coming forward with your story. It 
takes enormous bravery and courage to do what you have done. It 
is unconscionable to me how someone who is on suicide watch can 
be put in an outpatient facility at Walter Reed.
    I am glad that, because of what happened, that the Army has 
changed that policy, and because you have come forward you have 
changed some of the policies of the Army on this issue. 
Unfortunately, the Army has not apologized to you for your 
tragic experience, and I would like to, on behalf of the U.S. 
Government, make that apology to you and say that we are sorry 
and yield back.
    Mr. Issa. I thank the gentleman.
    I think I would like to pick up exactly where the gentleman 
left off and say we make mistakes. We have made mistakes in 
every war. When we make mistakes, people die, and so you have 
my heartfelt apology for the mistakes that clearly were made in 
your son's case.
    You didn't say what the death certificate said for your 
son. I would hope that it said service-connected death; that, 
in fact, just like the men and women who were added to the wall 
of the Vietnam Memorial because they died of injuries received 
in Vietnam, your son clearly is a fatality of his service. You 
have our deepest sympathy. All we can say is we will strive not 
to make this mistake again.
    I am not going to tell you that we are not going to make 
mistakes and that young men and women are not going to die 
again or that bureaucracy isn't going to make a mistake.
    Our next panel is going to, in fact, represent health care 
professionals who we are going to count on to be part of that 
change. We are going to ask them if they have the resources 
they need; if, in fact, the attitude necessary to ensure that 
every man and woman gets the care they need and gets it in an 
expeditious fashion exists both in the medical professionals 
and in the chain of command.
    We are going to ask if the organization needs to be 
changed, because that is what this committee does, it oversees 
the bureaucracy and the structure of Government.
    Last, but not least, we are going to question the 
leadership at all levels, not just at Walter Reed but 
throughout the military structure, to find out whether or not 
leadership has, in fact, gotten the message that not all 
injuries can be seen from the outside.
    It is very hard to ask questions in this kind of an 
environment, because each of you represents somebody who has 
fallen through the cracks of our system. Finding the right 
changes can be difficult.
    Specialist Smith, I do have a couple of questions for you. 
If I understand correctly, your back injury occurred early on, 
before your first deployment?
    Mr. Smith. Yes, sir.
    Mr. Issa. And that still bothers you today?
    Mr. Smith. Yes, sir.
    Mr. Issa. And are you receiving physical therapy and other 
treatment to help with that?
    Mr. Smith. I did physical therapy for approximately 6 
months, and they told me that I had reached the extent of my 
physical therapy.
    Mr. Issa. And have they diagnosed what the permanent 
portion of the disability is?
    Mr. Smith. Yes. I have a diffuse bulged disk between my L-
4/L-5 vertebrae.
    Mr. Issa. And surgery won't do any more for it?
    Mr. Smith. No, sir. They said surgery could possibly make 
it worse.
    Mr. Issa. OK. You said you have a P-3, so you have a 
limited ability to perform your duties; is that right?
    Mr. Smith. Yes, sir.
    Mr. Issa. What are those limitations?
    Mr. Smith. I have it right here, sir. According to this 
profile, I cannot carry or fire an individual weapon, I am not 
able to move fighting gear at least 2 miles, I am not able to 
construct an individual fighting position, I am not able to do 
3 to 5 second rushes under direct or indirect fire.
    Mr. Issa. Specialist, I think I have it. You are not fit 
for combat?
    Mr. Smith. Yes, sir.
    Mr. Issa. And yet you were deployed. Now I guess I will ask 
the tough question. Have you ever been offered a discharge 
under medical conditions as a result of that injury?
    Mr. Smith. No, sir. The only medical board that I am 
getting is for my psychiatric care.
    Mr. Issa. Do you think that you should have been offered or 
should the military have evaluated, if you couldn't do the 
job--I will tell you the honest to goodness truth. I enlisted 
in the Army in 1970 to be a truck driver, so I ended up in bomb 
disposal because I wasn't good enough to be a truck driver, I 
suspect. But I, in fact, understand what it is like bouncing 
around in a military vehicle. Do you think that, in fact, that 
should have been the first sign that, in fact, you were going 
to have difficulty performing in your multiple tours to Iraq?
    Mr. Smith. Yes, sir.
    Mr. Issa. OK. If there is a second round I would love to 
pick up on this. I thank the chairman and yield.
    Chairman Waxman. Thank you very much, Mr. Issa.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman. I want to say 
to all of our witnesses that we appreciate your valor, your 
courage, and your bravery for coming here in front of this 
committee. It takes a lot of courage to tell the truth, and it 
is time now that we have people like yourselves come and tell 
the truth.
    In the middle of this war that we are fighting, the 
casualties are a manifestation of the cracks in our system, and 
your coming and your articulating for us what the cracks in our 
system are, we are going to protect our homeland, we have to 
know where to fix these cracks along the way so that we can, 
indeed, protect the land that we love, we are committed to. I 
just want to thank you for being here.
    One of the purposes of the hearing is to help people 
understand the conditions like post-traumatic stress disorder 
and traumatic brain injury. These are very serious injuries, 
even though they are invisible. They are injuries caused by 
real, real traumatic battlefield experiences.
    Now, a number of studies have shown that the more time 
soldiers spend in combat, the more likely they are to develop 
PTSD when they come home. The soldiers most likely to develop 
these conditions are the soldiers who spend most time outside 
the wire, where they are exposed to sniper and mortar fire and 
IEDs.
    I would like to direct this to Specialists Smith and 
Bloodworth. You both have had combat experience. I would like 
to ask each one of you to describe what soldiers experience 
when they are in Iraq. So Specialists Smith and Bloodworth, can 
you give us some description of your experiences for our 
committee? Let's start with Specialist Smith, please.
    Mr. Smith. Yes, ma'am. Whenever we were in Ramadi we were 
under constant fire. Every day we left the wire, every day we 
were mortared. We have seen RPGs, sniper fire on a constant 
basis. I was hit with six IEDs, or the vehicle that I was in 
was hit with at least six IEDs. Sniper fire, like I said, on a 
regular basis. It is really stressful. We have seen people 
blown apart. We have seen our own soldiers catch fire and burn 
right in front of us. These are all things that pretty much 
everybody in my whole company experienced.
    Ms. Watson. Specialist Bloodworth.
    Mr. Bloodworth. Ma'am, you pretty much hit the nail on the 
head. I was running convoys, five on, one off. That was our 
routine. With that, I have seen friends and fellow soldiers 
injured, killed. Your friends will go out on a mission and then 
somebody doesn't come back. I was hit with five IEDs and so 
many small arms ambushes that I can't even count in 11\1/2\ 
months that I was there. It is a very nerve-wracking 
experience, even on your off time. On the day that you are 
supposed to be able to rest, you can't get the other 5 days 
that you just spent out on the road out of your head.
    Ms. Watson. I am looking at you in uniform and I know that 
your training, at least traditionally, has been to fight in a 
conventional way, correct?
    Mr. Smith. Yes, ma'am.
    Mr. Bloodworth. Yes, ma'am.
    Ms. Watson. What you are finding in Iraq is a non-
conventional kind of experience; is that correct?
    Mr. Bloodworth. Yes, ma'am.
    Mr. Smith. Yes, ma'am.
    Ms. Watson. Do your enemies wear uniforms similar to what 
you have on?
    Mr. Bloodworth. They had better not.
    Ms. Watson. Similar, I should say.
    Mr. Bloodworth. It would make the job easier.
    Ms. Watson. They don't have patches indicating what 
countries they are from?
    Mr. Smith. No, ma'am. Most of the time they are dressed as 
civilians, and they will even just pop out of a crowd of people 
and just fire at you.
    Ms. Watson. So you never know who the enemy is?
    Mr. Smith. Yes, ma'am.
    Ms. Watson. Right. And were you trained to deal with IEDs?
    Mr. Smith. We had some brief training before we left. They 
went through some obstacle courses and they told us what we can 
expect, but the IEDs are constantly changing. Just in the time 
we were over there, they went through, like, two different 
kinds that they were using. They started out with pressure 
plates, and they were using them where they were putting them 
up on the telephone poles, so it is constantly changing, so it 
is hard to keep up with the training.
    Ms. Watson. When the other panel comes up, I want to know 
how we are training and preparing our troops to fight in an 
unconventional manner, and I think if we can get to that point 
maybe we can start addressing the results of the experiences 
that you have experienced.
    I want to say to the Coons----
    Chairman Waxman. Ms. Watson, your time is up. Would you 
conclude your sentence?
    Ms. Watson. OK, and they can respond maybe at another time, 
but I just want to say that until we can get to the point that 
we will understand what we are up against, we are going to see 
more cases like you are describing.
    Thank you so much, Mr. Chairman. I appreciate it.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would also like to thank the panel for your testimony and 
for your sacrifices. Particular welcome to Specialist 
Bloodworth, a fellow Kentuckian. Welcome. It is nice to see 
you.
    I think it is safe to say, and I think I can speak for 
everyone on this panel and probably everyone in Congress, that 
one of the toughest things we deal with is trying to suppress 
our own emotions when we hear stories like yours. It is a 
combination of anger and sympathy--sympathy for the quest that 
you have experienced, but anger that the system is not handling 
your needs as well as at it could.
    I would like to kind of proceed on somewhat of a corollary 
from what Congresswoman Watson was asking. Did any of you know 
what PTSD was before you got in the service?
    Mr. Bloodworth. Sir, they had given us some briefings about 
depression and anxiety, and they gave it a face and called it 
PTSD, but didn't really explain what it was.
    Mr. Yarmuth. Is there any way that you can prepare 
psychologically for what you experienced and what you saw?
    Mr. Bloodworth. Take it 1 day at a time is the best thing 
to do.
    Mr. Yarmuth. Specialist Smith.
    Mr. Smith. I always say that you can prepare for it but you 
can never be ready for it.
    Mr. Yarmuth. Do you think that the preparation that you 
received as to the possible psychological impact of what you 
were going to experience could have been better, or do you 
think there is any way to make it better?
    Mr. Smith. I don't think there is any way to really make it 
better, because you don't know what you are going to see. All 
you can do is maybe watch videos and have it explained to you, 
what you might be experiencing, but I don't think there is any 
way to really prepare for it.
    Mr. Yarmuth. Addressing the question of the stigma that has 
been talked about by several of the Members and you have 
addressed, do you think that it would be beneficial if everyone 
who came out of a combat zone, as you did, were forced to do 
more than answer a questionnaire so that there would be no 
question of you wimping out in seeking treatment?
    Mr. Smith. Yes, sir. I think it would be very beneficial 
for anywhere from 3 to 6 months for them to be forced to sit 
down and talk to somebody and talk about their experiences. 
That way they can be evaluated one-on-one. Nobody has to know 
who said what.
    Mr. Yarmuth. Specialist Bloodworth, would you agree with 
that?
    Mr. Bloodworth. I agree, that would definitely work for the 
active Army, but for the National Guard I don't see how. I 
mean, it is a good idea, but maybe a possibly longer 
demobilization time and retraining soldiers to live daily life 
and doing more than just a 10-question questionnaire.
    Mr. Yarmuth. Mr. Coons, you were shaking your head. Did 
that indicate that you had a different response?
    Mr. Coons. Well, through our Congressman's office we have 
been trying to get some questions answered, and just yesterday 
we were given a letter from the acting Secretary of the Army, 
and they bring up that subject that, in addition to post-
deployment, health reassessment is given 3 to 6 months 
following a soldier's return from deployment.
    I, as a citizen who has lost a son, find that deplorable. 
Some of these young people are going over there for their 
second and third tours. Why do we have to wait 3 to 6 months? 
That is normally too late. It should be one of the first things 
these people go through when they return.
    I am no doctor, but, I mean, I just can't understand that.
    Mr. Yarmuth. Mrs. LeCompte, do you have a comment on this 
issue as to whether mandatory screening following returning 
would have been helpful in your case?
    Mrs. LeCompte. Yes, I do. I feel that it should have been 
done right away.
    Mr. Yarmuth. One further question on Specialist Smith. You 
talked about the fact that when you were redeployed that you 
were possibly a threat to others and that is certainly a 
problem. Could you explain maybe what other ways your 
performance as a soldier changed, if it did, between 
deployments?
    Mr. Smith. Yes, sir. I lost a lot of initiative. I really 
didn't care to advance in the military any more, especially, I 
mean, I felt like I was getting looked down upon. I just 
started showing up to work late, where I was always one of the 
first ones there, and I just really didn't care to train any 
more. I was kind of out of it most of the time when I was 
there.
    Mr. Yarmuth. Finally, I guess a quick question for both you 
specialists. Do you feel that you had to put any pressure on 
the system to get the attention that you needed?
    Mr. Smith. Yes, sir. Actually, whenever I was put into 
inpatient care, my mother had contacted a news reporter, and 
that is when all my care and all this got started for me.
    Chairman Waxman. Thank you, Mr. Yarmuth.
    Mr. Yarmuth. Thank you.
    Chairman Waxman. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. I just have a few 
questions.
    I would like to ask a few questions related to the stress 
that multiple deployments and increased duration of deployments 
may be having on our armed forces. We already know through 
studies that the rate of PTSD amongst soldiers returning from a 
second deployment is about 40 percent higher than it is for 
those returning from their first deployment. I had the chance 
to visit our soldiers in Iraq and Afghanistan in April, and I 
just happened to be there on the day that the Department of 
Defense announced that they would be extending the tours of 
duty from 12 months to 15 months for those soldiers. This is 
the first time in our military history when we have had a 
policy whereby soldiers are asked to serve on the front lines, 
as Specialist Smith has testified to, 5 days, 6 days, 7 days 
without time off. That goes beyond 6 or 7 months. Now we are 
having 12-month deployments extended to 15-month deployments.
    I direct the question to Specialist Bloodworth first, 
because I believe that the unit that you served with in Iraq, 
the 34th Infantry Division, was extended, I think, recently by 
125 days. Is that correct?
    Mr. Bloodworth. Yes, sir. We received our extension orders 
on January 1, 2007.
    Mr. Murphy. Can you just talk for a moment how soldiers in 
the unit reacted to the extension and to what extent that 
affects the morale of the unit?
    Mr. Bloodworth. Metaphorically you could have heard 
everybody's heart's breaking when the first sergeant handed us 
out our orders. That was the time when people really started to 
lose their cool, really started to lose their military bearing, 
and became complacent even on missions, because who cares, we 
are here for another 125 days. We were actually in the process 
of packing our conexes and sending bags home and they just 
dropped the bomb on us.
    Mr. Murphy. And I would imagine, Specialist, that for those 
troops who have had mental illness or PTSD that has gone 
undiagnosed, that moment can be especially backbreaking?
    Mr. Bloodworth. It worsened for a lot of people, and I was 
working with the Combat Stress Team. I was going and seeing 
them offline without my unit even knowing. Only one person in 
my unit knew, and they actually found out we were getting 
extended, and I had an e-mail to come see them immediately to 
talk about the issues, because my therapist there thought there 
would be an issue.
    Mr. Murphy. Specialist Smith, if I might ask that question 
to you, as well, your thoughts on how these announcements 
related to tour extensions have had an effect on both troop 
morale and on troops who may have undiagnosed or untreated PTSD 
and mental health issues.
    Mr. Smith. I agree with the specialist here. I mean, it is 
really heartbreaking to tell somebody that you are not going to 
see your family for another 3 months, especially when, like, 
the R&R leave, I have buddies that, we just deployed in March, 
they're already coming home on R&R, and they got another 12 
months they have to spend in country before they can see their 
family again. I believe that plays a big role on it.
    Mr. Murphy. And I will actually turn that question over 
also to Mrs. LeCompte, because this is an issue that relates 
not only to the soldiers that may have their conditions 
exacerbated by an extension on their tour, but it also affects 
their support network, those expecting them to come home after 
12 months. Realizing that is extended might just give you the 
opportunity to talk about how that affects families that you 
may know or be in contact with.
    Mrs. LeCompte. It would definitely cause more stress to the 
family. I mean, of course, every day just sitting and waiting 
just to hear a phone call just to make sure they are OK, and 
for them to extend it even more, and still yet don't have a 
clue on how to fix what is happening to these soldiers is very 
detrimental. It is like an epidemic.
    Mr. Murphy. Thank you very much. I know there are those on 
this panel who might want to separate the issue of the policies 
directed toward the wars we are fighting now with the question 
of how we treat and how we prevent these illnesses from 
becoming exacerbated. I think this is an example in which the 
two cannot be separated, Mr. Chairman. I yield back the balance 
of my time.
    Chairman Waxman. Thank you, Mr. Murphy.
    Mr. Welch.
    Mr. Welch. Thank you. Taking up from where my colleague, 
Mr. Murphy, spoke, I was with him on the trip to Iraq and 
Afghanistan. It was the first time in my life where I spent 5 
days with the soldiers in their world. I came away with 
enormous respect, and a lot of the respect was that what is 
being asked of you is really quite unbelievable. You are in 
danger constantly. And we have heard the testimony about the 
stress you have been under, the change in your son and the tone 
of the letters that came back. I don't know what you think of 
this, but as I listened to this, there are issues about the 
Army and our services being responsive, and you are helping us 
focus on paying whatever attention we can so it is better, but 
there is also a situation there where you guys are just in 
incredible danger all the time. I mean, what you describe, how 
many IED events that you were involved with, sniper fire 
constantly, I mean, that takes its toll. And then having news 
that when you thought your deployment was going to end it is 
going to be extended. All the while there is significant 
questions about whether what you are doing over there is a 
civil war and you are caught in the middle of it. It is so 
incredibly stressful.
    I just want to convey to you my appreciation for what you 
are doing, but I don't know anybody who could manage to serve a 
tour without a significant toll.
    I would just like to maybe ask you, Specialist Bloodworth, 
to describe some of the additional day to day events that you 
experienced during your service.
    Mr. Bloodworth. Day to day experience, I was a driver for 
the longest time, so my truck commander felt that it was 
necessary for me to sleep all the time unless we were on the 
road, so mission days it was, wake up, eat, get the truck 
ready, go on mission, try not to die, come back, go to sleep. 
On off days I usually just tried to hang out with some of my 
friends within our platoon and take off the uniform, put on 
some PTs, and try to forget the fact that you are in Iraq. 
Maybe barbecue. Maybe grill. Just talk. Go see a movie or 
something to try to escape that. That was day to day living off 
mission, because I think we both described what on-mission was 
like.
    Mr. Welch. Specialist Smith.
    Mr. Smith. My day to day living wasn't quite as comforting 
as his. We didn't have movie theaters or anything like that. We 
actually lived in a house that was taken over in Ramadi. We had 
people that lived around us, so we were constantly having to be 
on watch.
    We had a big gas station across the street from us where 
there was people constantly in and out, so day to day living 
was really stressful even there. We were in close quarters. We 
had eight men in just a regular-sized bedroom. So it was really 
stressful and it was really hard to deal with people on a day 
to day basis living like that.
    Mr. Welch. I can imagine. And, Mr. and Mrs. Coons, you 
described the change in the tone of your letters. Your son 
sounded like a wonderful young boy, young man, and military 
person. And then you noticed a real stark change in the tone of 
the letters. I would be interested in I know you have given it 
a lot of thought, but do you have any thoughts that you can 
share with us about what accounted for his change in tone?
    Mr. Coons. With James being a career soldier, I mean, and 
really I said in the beginning that even as a youth he always 
had the Army first and he was over getting prepared for the 
initial invasion and everything, and I guess if people can go 
back to 2003 it seems like we geared up and were getting ready 
to go, then we came back down. This happened two or three 
times. We would talk about that in e-mails, and he said it is 
frustrating people. We're ready to go, let's go. Let's go. 
Let's get it over with.
    I would say in April or May he has never said anything 
negative about his military career. For some reason, in April 
or May he became disillusioned. He said all I care about now is 
my 20 years and I'm getting out, where all we had heard in the 
past is I will probably be here 25 or 30 years. I want to be 
sergeant major of whatever division. That was his goal. And his 
whole attitude started changing about that timeframe.
    I can't put my finger on it. I mean, comments we'd see. It 
is a numbers game. We're not respecting our deceased soldiers. 
I mean, just things like that from him on a constant basis.
    Chairman Waxman. Thank you, Mr. Welch.
    Mr. Welch. I yield my time.
    Chairman Waxman. Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    I also want to thank all the witnesses for being here 
today. This is very important testimony. If we are going to 
make the right kinds of changes to make sure the things that 
happened to your husband, your son, and you, the soldiers, are 
fixed, we really need to hear from you, so I appreciate your 
being here today.
    One of the things that I would like to talk about is what 
the Army calls dwell time. It is the amount of time soldiers 
spend at home between deployments. Now, the Army policy has 
been that the ratio between dwell time and deployment time 
should be two-to-one. For example, for every year you spend 
deployed in Iraq, you should spend 2 years at your home bases, 
and during those 2 years soldiers have time to train, to 
recuperate, to spend time with their families that were 
interrupted by deployment.
    The Army has recently had to change that policy for Iraq 
and Afghanistan. According to one recent study, there are 
currently fourteen brigade units in Iraq that are deployed with 
less than 2 years at home, and four brigades that have deployed 
with less than 1 year of dwell time.
    Now, we have also heard a report that the Army is even 
considering paying bonuses to soldiers who agree to spend less 
time at home between deployments. I want to explore a little 
bit the importance of dwell time and why the 2-year policy is 
an important policy for soldiers and their families.
    Let me ask first, Specialist Smith, how much dwell time did 
your brigade unit, the Third Brigade, Third Infantry Division, 
have between its Iraq deployments?
    Mr. Smith. Well, Third Brigade, they deployed in 2003, 
again in 2005, and now again in 2007.
    Mr. Hodes. Were there times when it was less than 2 years 
at home?
    Mr. Smith. Every time, sir.
    Mr. Hodes. And did you have discussions with your fellow 
soldiers about the dwell time issue and what it meant for you?
    Mr. Smith. Yes, sir. The time just passes so fast when you 
are back here in the States. Eight months goes by and you feel 
like you just got home, and then you are gearing up to go 
again. It is kind of depressing.
    Mr. Hodes. So it adds to the stress of the redeployment to 
have not enough dwell time at home?
    Mr. Smith. Yes, sir.
    Mr. Hodes. And if you had more dwell time, what do you 
think the effect would be on the mental health of the soldiers 
who are returning for redeployment?
    Mr. Smith. I believe it would allow more time to get 
evaluated, to get the things out of your mind, to be with the 
ones that you love. That is a big issue. By the time you get 
resituated with your family, you are gearing up to leave again, 
so you can never really fully adjust back to life, being with 
your family.
    Mr. Hodes. Mrs. LeCompte, from your standpoint as a family 
member, can you talk to us a little bit about what the dwell 
time means to you and having enough time to be with your 
husband in between deployments, and what impact, if any, having 
shrinking dwell time means for you and the family?
    Mrs. LeCompte. My husband was only home approximately about 
8 months before he went back out again. I mean, it is 
definitely hard to adjust, because it takes them so long to 
adjust, just coming from a hostile environment back to a home 
environment as it is. I just think that the shorter it gets the 
harder it would be on families, because, I mean, it just takes 
them so long, as we hear today, things are just now coming out 
about the PTSD issues already. You have a lot of problems home 
already, just from them coming home.
    Mr. Hodes. Mr. and Mrs. Coons, do you have anything to add 
to the question of the dwell time?
    Mr. Coons. No, sir. Unfortunately, we didn't have that 
experience.
    Mr. Hodes. Thank you very much.
    Mr. Chairman, before I yield back, I just want to say I 
think it is not right to treat our troops this way. We know our 
soldiers need more time at home to recuperate, preserve their 
health, get ready for redeployment, and deal with what they 
have been through, but in my judgment we went into this war 
without the proper preparations, we have shortchanged our 
troops, we are denying them the rest they need to do their jobs 
and keep themselves safe, and it is multiplying the issues that 
we are now facing with mental health problems, PTSD, that we 
are seeing. It is an issue that we are going to have to 
address.
    Thank you, Mr. Chairman. I yield back.
    Mr. Issa. Would the gentleman yield?
    Mr. Hodes. Certainly.
    Mr. Issa. I would like to join the gentleman in recognizing 
that the dwell time is not enough, and that with approximately 
1 million soldiers, sailors, and Marines, it is the inequity 
that many, many units have never been in theater in Afghanistan 
or Iraq while others are on their third deployment. I hope that 
this committee will join the chairman in trying to get to the 
bottom of why that inequity continues to exist.
    I yield back.
    Chairman Waxman. Thank you, Mr. Hodes.
    I want to recognize Mr. Tierney, who is the subcommittee 
chairman who has worked so diligently on the issue of Walter 
Reed and has been very involved in all of the questions on what 
we are doing for our returning military.
    Mr. Tierney. Thank you very much, Mr. Chairman. Thank you 
for having this hearing.
    Thank all the witnesses for coming forward and helping us 
out with this matter. I think it is going to make a significant 
difference.
    I think, to a certain extent, Mr. and Mrs. Coons, in an 
unfortunate way you have already made a difference, and so has 
your son.
    I was curious. As you were testifying I was looking through 
some of the records that we had produced as a result of some of 
the earlier hearings on that. How long had your son actually 
been separated from his family and in theater before his death?
    Mrs. Coons. Around a year.
    Mr. Tierney. About a year?
    Mrs. Coons. Yes.
    Mr. Tierney. And how long had he been home before he was 
sent in for that year?
    Mrs. Coons. I'm sorry?
    Mr. Tierney. Had he been in before and come home and was 
going in again, or was it his first deployment?
    Mrs. Coons. This was his first deployment.
    Mr. Tierney. I note in the reports the issues that are 
here, the change of attitude that you may have experienced 
seemed to follow his exposure to a number of killings in 
action. It was followed by nightmares and things of that 
nature. And then the acute stress disorder was compounded by 
the lengthy separation from his family. I think these are all 
issues that we are going to have to examine as we do more 
research into the matter on that.
    There is nothing in the reports, however, about your 
constant contacts with the hospital once your son got home or 
whatever, and I think we are going to explore that as we go on 
in the hearings as to why there isn't a recording on that, why 
there wasn't enough attention paid to your efforts to get in 
touch with him. But there was an indication in the records that 
there was apparent confusion that existed when your son was 
sent home through the medical system, through the medical 
channels as an ambulatory patient as opposed to an inpatient. 
That is an indication that there was a policy clarification 
they note here, but that people ought to have an attendant with 
them, a supervisor with them when they come home, in that 
sense. And there is expensive paperwork here about reiterating 
that clarification and making sure that happens. So in that 
sense at least I want you to know that there has been a change 
made in that, and I think it is going to make a significant 
difference in the lives of other people.
    I won't belabor this panel, Mr. Chairman. I think that the 
questioning has been pretty extensive and the answers have been 
very helpful.
    I just want to again thank all of you for your service to 
country and give our serious condolences for your loss to the 
Coons.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Tierney.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank all of your for your testimony. It demonstrates a lot 
of courage to be here.
    I am struck by a couple of things at the outset. One is, 
looking at you and listening to you, I know that there are 
thousands of families and individuals and soldiers who are in a 
similar position, and that is what makes your testimony so 
powerful here today.
    I am also very aware of the sheltered existence, the 
protected existence that I have, not having been in the 
situation you have been in, and aware that it is sheltered and 
protected by you, by what you are doing, so I thank you for 
that.
    Mrs. LeCompte, I wanted to ask you a few questions based on 
your testimony about the impact that your husband's condition 
had on the family, but, in particular, the impact that the 
failure to get the help in a timely way that you were seeking 
had on your family. In other words, I can imagine that if there 
were regular appointments that had been established right from 
the beginning of his return, that would have helped you get 
from one day to the next, because you knew that relief, that 
help was coming, and the fact that it didn't come or you 
expected it to be there and then it wasn't there only added to 
the stress and the tension inside the home, so if you could 
speak to that.
    Mrs. LeCompte. Definitely. I mean, these guys go over to 
protect the United States and they expect to be protected when 
they come home. I mean, the overall effect when you think that 
there is help and there is not, I mean, it is very detrimental 
to the whole family, the children. I mean, it has its ripple 
effects.
    When these guys go in and ask for help or they are going 
through the SRPs or whatever, they expect the help, and when it 
is neglected they only deteriorate more.
    Mr. Sarbanes. Did you find yourself having to step in to a 
kind of support role that you felt should have been provided by 
other resources? And what was the effect of that?
    Mrs. LeCompte. I mean, I feel that my husband was ignored 
and ridiculed, and so on, and so finally I had to become his 
voice and kind of step in. Even myself, as the military calls 
it being a civilian, it was even hard to get people to listen 
to me for that help, for plea, and it shouldn't have gotten 
this far.
    Mr. Sarbanes. Well, I salute you for not giving up and 
pushing on the system and beginning to get the results that you 
deserved right from the outset.
    I would like to ask you, Specialist Smith and Specialist 
Bloodworth, this single question. This is a followup to the 
questioning about the extension of tours. Describe, if you can, 
how much a soldier invests psychologically in the end date of 
their tour. In other words, right from the beginning. Again, I 
don't know it from personal experience, but I have to believe 
that part of what allows you to steel yourself for what you are 
experiencing right from the first day is having that date when 
you know you are going to come home.
    The contribution to technical support division that comes 
from the experiences you are having on the ground is one thing, 
but is it compounded? I mean, does it actually have an effect 
on your mental state when suddenly--and I think you said, 
Specialist Bloodworth, that you were packing at one point when 
you got word of an extension, which represents sort of 
psychologically just pulling the rug.
    Talk about from the beginning of a tour how important and 
how invested you get in, if it is the case, in that end date 
and what the effect of it is when it gets pulled away from you.
    Mr. Smith. Sir, I would say that mentally you have a whole 
lot invested in that. You are looking forward to it. Even when 
I was there, I was told I was leaving on a certain date and it 
was 2 weeks later. For that 2 weeks, I was just, like he said, 
I was complacent. I got, like, all right, whatever, I am just 
here. You invest a whole lot into that time they say this is 
when you are going home.
    Mr. Bloodworth. And, just to finish up before time runs 
out, it is pretty much like seeing the light at the end of the 
tunnel and it turns out to be a freight train and you don't 
know what to do, because that time seems to grow indefinitely, 
and every day gets longer, so it is difficult, sir.
    Mr. Sarbanes. Thank you for your testimony.
    Mr. Chairman, it just strikes me that the policy, itself, 
is contributing to the mental state, the negative mental state, 
that we are talking about here today.
    Thank you.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Issa.
    Mr. Issa. I will be brief, but I think it is very 
important, since we have you here, to followup on that line of 
questioning. It is not related to the topic, but it is related 
to your service. Were you aware when you were in Iraq that, 
while you were serving, depending upon what time you were 
there, but let's just call it a 1-year tour, that other units 
such as Navy, not the Corpsmen, but other than Navy Corpsmen, 
were serving 4 months or less, that the Air Force routinely 
serves 120 days? You are shaking your head yes, Specialist? You 
were aware of that?
    Mr. Bloodworth. Yes, sir. The camp I was at was actually an 
Air Force base, so we saw a changing of hands constantly. Very 
jealous.
    Mr. Issa. So they basically came in, got their combat time, 
their tax-free pay, and they were gone pretty quick, never 
having gone outside the wire?
    Mr. Bloodworth. The only people from the Air Force that I 
was aware of that were going outside the wire was their EOD 
elements, but as for everyone else, that is pretty much it, 
sir.
    Mr. Issa. Well, as an EOD guy I appreciate that.
    Last, but not least, it has been announced that for Army 
and Marine units already at 12 months, they are going to 15 
months. What do you think that is going to do to the types of 
tours that you have already endured?
    Mr. Smith. I think it is going to make it much harder. 
Three months doesn't sound like much, but when you are over 
there it seems like a lifetime that you are away from your 
family and that is 3 months longer you have to deal with the 
same person day in and day out. You wake up, you look at them, 
and it makes it a lot harder.
    Mr. Bloodworth. When they say extended and you have 3 
months, to me that is almost 60 more missions. That is almost 
60 more days that I am going to be out there strung out, 
stressed out. It is hard to look at things like that and still 
keep a cool head.
    Mr. Issa. Well, thank you for your service. Thank you for 
your testimony.
    I yield back and thank the chairman.
    Chairman Waxman. Thank you very much, Mr. Issa.
    Let me again thank all of you for your presentation and 
your forthrightness in responding to questions and helping us 
understand what has happened in your cases and realizing your 
situations are magnified many times over by others who are 
experiencing the very same or very nearly the same kinds of 
situations. We are going to have to learn, as a country, to 
deal with all of this a lot better than we have.
    Thank you so much.
    We are going to take a 5-minute recess before we call the 
second panel.
    We stand in recess.
    [Recess.]
    Chairman Waxman. The committee will come back to order.
    For our second panel I want to welcome Dr. Michael 
Kilpatrick, the Deputy Director for Force Health Protection and 
Readiness Programs at the Department of Defense. Dr. Kilpatrick 
is accompanied by Dr. Jack Smith, the Acting Deputy Assistant 
Secretary of Defense for Clinical and Program Policy.
    Dr. Antoinette Zeiss is Deputy Chief Consultant in the 
Office of Mental Health Services at the Department of Veterans 
Affairs. Dr. Zeiss is accompanied by Dr. Al Batres, the VA's 
Chief Officer at the Office of Readjustment Counseling.
    Dr. Thomas Insel is the Director of the National Institute 
of Mental Health at the National Institutes of Health.
    Major General Gale S. Pollock is the Commander of the U.S. 
Army Medical Command and is the Army's Acting Surgeon General.
    Dr. John Fairbank is an associate professor of medical 
psychology at the Duke University Medical Center, and a member 
of the Institute of Medicine's Committee on Veterans 
Compensation for Post-Traumatic Stress Disorder.
    I want to thank all of you for being here today.
    As I mentioned earlier if you were here for the first 
panel, it is the practice of our committee to ask all witnesses 
to take an oath, and those, as well, who are accompanying those 
who are making the oral presentations, if you would also rise 
we would appreciate it.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    I want to start with Dr. Kilpatrick, if he would be our 
first witness. We have your prepared statements, and we will 
put those in the record in full, but we would like to ask each 
of you, if you would, to limit the oral presentation to 5 
minutes. We have a clock. It will turn yellow when you have 1 
minute left and then red when 5 minutes is up.
    Dr. Kilpatrick.

STATEMENTS OF DR. MICHAEL E. KILPATRICK, DEPARTMENT OF DEFENSE, 
DEPUTY DIRECTOR, DEPLOYMENT HEALTH SUPPORT, ACCOMPANIED BY DR. 
 JACK SMITH, ACTING DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR 
CLINICAL AND PROGRAM POLICY; DR. ANTONETTE ZEISS, DEPARTMENT OF 
  VETERANS AFFAIRS, DEPUTY CHIEF CONSULTANT, OFFICE OF MENTAL 
 HEALTH SERVICES, ACCOMPANIED BY DR. AL BATES, CHIEF OFFICER, 
OFFICE OF READJUSTMENT COUNSELING; DR. THOMAS INSEL, DIRECTOR, 
    NATIONAL INSTITUTE OF MENTAL HEALTH; MAJOR GENERAL GALE 
  POLLOCK, ARMY SURGEON GENERAL; AND DR. JOHN FAIRBANK, DUKE 
    UNIVERSITY, MEMBER, INSTITUTE OF MEDICINE COMMITTEE ON 
   VETERANS' COMPENSATION FOR POST-TRAUMATIC STRESS DISORDER

               STATEMENT OF MICHAEL E. KILPATRICK

    Dr. Kilpatrick. I would like to start by expressing my 
appreciation for the opportunity to hear the testimony of the 
first panel. Very compelling. Very courageous people. I thank 
them also.
    Mr. Chairman and distinguished members of the committee, 
thank you for the opportunity to discuss the Department's Force 
Health Protection and Readiness Program and programs in the 
military health system with the focus on the mental health 
aspects of those programs.
    Two primary objectives of the military health system are to 
ensure a medically ready force and to provide world class care 
for those who become ill or injured. The Department of Defense 
is well aware of the stress that combat deployments place on 
our service members and their families. We have a multitude of 
proactive programs in place and underway to educate, screen, 
diagnose, and treat our service members and their families. We 
also have robust surveillance programs in place to monitor the 
health of our force before, during, and after deployments.
    In theater, we have the smaller medical footprint that is 
agile, mobile, and responsive to the needs of the mission. This 
includes medical support for mental health in theater. Each 
branch of service has specific combat stress and deployment 
mental health support programs available before, during, and 
after the deployment cycle. These provide support tailored to 
the service's mission and risk factors that personnel might 
face.
    Multi-faith chaplains deploy with units to maintain a 
ministry of presence. They offer confidential counseling and 
are safe havens for those who need someone to talk with during 
troubling times. They often facilitate access to other avenues 
of care.
    Since March 19, 2003, there have been nearly 27,000 air 
medical transports out of Operation Iraqi Freedom theater, 20 
percent of which are for combat injuries, 20 percent have been 
due to non-combat injuries, and the remaining 60 percent are 
due to medical conditions that need evaluation or treatment not 
available in theater. Mental health conditions have accounted 
for 7 percent of those transports.
    We have over 1 million post-deployment health assessments 
done as people come out of theater from worldwide deployments. 
The active duty, 22 percent indicate medical concerns, 5 
percent mental health concerns, and 18 percent are referred for 
further evaluation after discussing their issues and concerns 
with a provider. All referrals are fairly equally divided 
between medical only, mental health only, and medical and 
mental health.
    The Reserves, 41 percent have medical concerns, 6 percent 
have mental health concerns, and 24 percent are referred.
    We have over 200,000 post-deployment health assessments 
done 3 to 6 months after people get home from these worldwide 
deployments. That started in June 2005. Of active duty, 33 
percent have medical concerns on those assessments, 27 percent 
have mental health concerns, and 16 percent are referred for 
further medical evaluation.
    The Reserve component, 56 percent have medical concerns, 42 
percent have mental health concerns, and 51 percent are 
referred.
    An important element of the post-deployment health 
assessments is education of the service members about medical 
conditions, both physical and mental, and the signs and 
symptoms that indicate the need for further evaluation.
    To better understand the mental health needs of the 
deployed force, the Army sent its first mental health advisory 
team to theater in 2003. This was the first time that such an 
assessment was done during a war-time deployment to evaluate 
the adequacy of mental health support in theater and 
preparation of medical and support staff for mental health 
care.
    Deployment-related mental health research projects are 
being conducted across DOD, VA, HHS, and other Federal and 
academic institutions. Of the 67 current projects, 32 are 
focused on PTSD.
    In 2004, a Hogue study showed a direct relationship between 
the level of combat exposure and meeting screening criteria for 
major depression, generalized anxiety, or PTSD. The proportion 
of people who met the screening criteria for each mental health 
disorder was higher after OIF Iraq, than after OEF Afghanistan, 
and was higher in the post-deployment groups than in the pre-
deployment group.
    A review of post-deployment health assessment mental health 
data showed a positive mental health screening in 19 percent of 
people returning from OIF compared to 11 percent coming back 
from Afghanistan and 8 percent returning from other locations 
in the world.
    Mental health concerns were significantly related to combat 
experiences. Among some 69,000 veterans of Iraq who accessed 
mental health in the year after coming home, only 35 percent 
actually received a mental health diagnosis. The military 
health system is second to none in its ability to deliver 
timely, quality mental health and behavioral care. This 
includes behavioral health and primary care, mental health 
specialty care, clinical practice guidelines, and ready access 
to high-quality, occupationally relevant primary care, along 
with different modeling and demonstration projects that are 
designed to help us continue to learn and improve the system of 
care delivery. In addition, walk-in appointments are available 
in virtually all military mental health clinics around the 
world.
    The 2003 Millennium Cohort Study evaluates the long-term 
health effects of military service, specifically deployments. 
Almost 140,000 individuals have enrolled in this DOD/VA ground-
breaking, 22-year study. As force health protection continues 
to be a priority for the future of military medicine, the 
Millennium Cohort Study will provide crucial steps in 
understanding the long-term health effects.
    The Department of Defense is very concerned about the short 
and long-term health care. We look for ways to better serve our 
service members, and we look forward to outside expert advise. 
The Mental Health Task Force, as you have discussed, is making 
recommendations, and we are looking forward and committed to 
diligently working to incorporate their recommendations.
    I thank you for your time.
    [The prepared statement of Dr. Kilpatrick follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.022
    
    [GRAPHIC] [TIFF OMITTED] T6429.023
    
    [GRAPHIC] [TIFF OMITTED] T6429.024
    
    [GRAPHIC] [TIFF OMITTED] T6429.025
    
    [GRAPHIC] [TIFF OMITTED] T6429.026
    
    [GRAPHIC] [TIFF OMITTED] T6429.027
    
    [GRAPHIC] [TIFF OMITTED] T6429.028
    
    [GRAPHIC] [TIFF OMITTED] T6429.029
    
    [GRAPHIC] [TIFF OMITTED] T6429.030
    
    [GRAPHIC] [TIFF OMITTED] T6429.031
    
    [GRAPHIC] [TIFF OMITTED] T6429.032
    
    [GRAPHIC] [TIFF OMITTED] T6429.033
    
    [GRAPHIC] [TIFF OMITTED] T6429.034
    
    [GRAPHIC] [TIFF OMITTED] T6429.035
    
    [GRAPHIC] [TIFF OMITTED] T6429.036
    
    [GRAPHIC] [TIFF OMITTED] T6429.037
    
    [GRAPHIC] [TIFF OMITTED] T6429.038
    
    Chairman Waxman. Thank you very much, Dr. Kilpatrick.
    Dr. Zeiss.

                  STATEMENT OF ANTONETTE ZEISS

    Dr. Zeiss. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here today and to discuss the 
steps the Department of Veterans Affairs is taking to meet the 
mental health care needs of our Nation's veterans.
    As you mentioned, I am accompanied by Dr. Alfonso Batres, 
Director of Veterans Readjustment Counseling.
    I also was here for the entire first panel and agree with 
the power and importance of that information.
    Rehabilitation for war-related PTSD and other military-
related readjustment problems along with the treatment of the 
physical wounds of war, it is central to VA's continuum of 
health care programs.
    Mental health services are provided in all VA medical 
facilities, including inpatient, outpatient, and substance 
abuse care. VA also provides services for homeless veterans, 
including transitional housing, paired with services to address 
the social, vocational, and mental health problems associated 
with homelessness.
    VA's vet centers provide counseling and readjustment 
services to returning war veterans. The vet center's service 
mission goes beyond medical care in providing a holistic mix of 
services designed to treat each veteran as a whole person in 
the community setting. Vet centers provide an alternative to 
traditional access for some veterans who may be reluctant to 
come to our medical centers and clinics.
    Care for Operation Enduring Freedom and Operation Iraqi 
Freedom veterans is among the high priorities in VA's mental 
health care system. Since the start of OEF/OIF through the end 
of the first quarter of fiscal year 2007, over 680,000 service 
members have been discharged and become eligible for VA care. 
Of those, over 229,000 have sought VA care. Of those who have 
sought care with VA, mental health problems are the second most 
commonly reported health concerns, with almost 37 percent 
reporting concerns suggesting a possible mental health 
diagnosis. Of those, PTSD was most frequently implicated, but 
non-dependent abusive drugs and depressive orders are the next 
most commonly indicated and are also frequent.
    VA's data show that the proportion of new veterans seeking 
VA care who are identified as possibly having a mental health 
problem has climbed somewhat over the years. For example, the 
proportion with possible mental health problems at the end of 
fiscal year 2005 was 31 percent, compared to 37 percent in the 
most recent report. For possible PTSD, the proportions of those 
time points were 13 percent and 17 percent.
    There are many possible explanations of this increase. We 
have discussed extended deployments, possibly more difficult 
combat circumstances. But we believe also that effective 
screening and outreach efforts help identify more with possible 
mental health problems, and VA has also taken and continues to 
make efforts to de-stigmatize seeking mental health services.
    So, regardless of the causes, there is an increase, and VA 
is prepared to devote increasing resources to serving these 
growing mental health needs.
    The mental health initiative provides funding for 
implementation of VA's comprehensive mental health strategic 
plan. The plan recognizes, as part of its broad vision for 
enhancement of mental health care, that ongoing war efforts 
necessitate special attention to the needs of OEF/OIF veterans. 
We have improved capacity and access, supporting hiring so far 
of over 1,000 new mental health professionals, with more in the 
pipeline. We have expanded mental health services in community-
based outpatient clinics, with onsite staffing, or by tele-
mental health. We have enhanced PTSD, homelessness, and 
substance abuse specialty care services and programs that 
recognize the common co-occurrence of these problems.
    We are fostering integration of mental health and primary 
care in medical facility clinics as well as the CBOCs, and in 
the care of homebound veterans served by VA's home-based 
primary care program.
    We have mental health staff well integrated in the 
polytrauma care sites, and we are expanding the number of vet 
centers over the next 2 years.
    VA promotes early recognition of mental health problems 
with the goal of making evidence-based treatments available 
early to prevent chronicity and lasting impairment. Veterans 
are screened for PTSD on a routine basis through contact in 
primary care clinics. When there is a positive screen, patients 
are further evaluated and, when indicated, referred to a mental 
health provider for followup. Veterans also are routinely 
screened in primary care for depression, substance abuse, 
traumatic brain injury, and military sexual trauma. Screening 
for this array of mental health problems helps support 
effective identification of veterans needing mental health 
services.
    I want to thank you again, Mr. Chairman, for having me here 
today. I will be happy to answer any questions when we come to 
time for that.
    [The prepared statement of Dr. Zeiss follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.039
    
    [GRAPHIC] [TIFF OMITTED] T6429.040
    
    [GRAPHIC] [TIFF OMITTED] T6429.041
    
    [GRAPHIC] [TIFF OMITTED] T6429.042
    
    [GRAPHIC] [TIFF OMITTED] T6429.043
    
    [GRAPHIC] [TIFF OMITTED] T6429.044
    
    [GRAPHIC] [TIFF OMITTED] T6429.045
    
    [GRAPHIC] [TIFF OMITTED] T6429.046
    
    [GRAPHIC] [TIFF OMITTED] T6429.047
    
    Chairman Waxman. Thank you very much, Dr. Zeiss.
    Dr. Insel.

                   STATEMENT OF THOMAS INSEL

    Dr. Insel. Thank you, Mr. Chairman. I am honored to be here 
and glad you thought to include someone from the NIH in this 
hearing.
    You have my written testimony. I think, given the time and 
the number of witnesses here, I am going to just very quickly 
summarize what I think is most important for us to think about.
    As you listened, and as I did, to the first panel, I think 
it is important to recognize there are kind of two classes of 
issues that we are hearing about. One class of issues has to do 
with what many of the people on the committee called the 
problems of stigma, the problems of the cracks in the system, 
the ripple effect of mental illness on family members and on 
others. Those are not unique to this war. They are not unique 
to this situation. They are really problems that we have for a 
range of mental illnesses throughout this society.
    As we think about what the fix is here and how we address 
them, actually we may be able to learn some things from what 
DOD and the VA are doing which may, in fact, be ahead of the 
curve.
    There are other issues, of course, that are going to be 
unique that have to do with the policies that came up in some 
of your questions, and there will be, I am sure, an opportunity 
to talk more about those. But I want to go back to this issue 
about whether this may be an example that we can learn from.
    Your first comments this morning, Mr. Chairman, involved a 
memo that you received from the L.A. County Department of 
Mental Health, and I think that is an important signal to us 
that this is not simply a problem for the VA or for DOD. This 
is a problem for mental health care throughout the country. 
Much of what we call the burden of illness, the public health 
challenge here, will spill over to the public sector to mental 
health care in the civilian sector.
    One of the questions I hope we will have a chance to think 
about is: are we prepared for that? What will that burden look 
like? How many people are we talking about, and what are the 
resources to address that?
    I look forward to the questions and hopefully a chance to 
discuss those issues further.
    [The prepared statement of Dr. Insel follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.048
    
    [GRAPHIC] [TIFF OMITTED] T6429.049
    
    [GRAPHIC] [TIFF OMITTED] T6429.050
    
    [GRAPHIC] [TIFF OMITTED] T6429.051
    
    [GRAPHIC] [TIFF OMITTED] T6429.052
    
    [GRAPHIC] [TIFF OMITTED] T6429.053
    
    [GRAPHIC] [TIFF OMITTED] T6429.054
    
    [GRAPHIC] [TIFF OMITTED] T6429.055
    
    Chairman Waxman. Thank you very much, Dr. Insel.
    Major General Gale Pollock.

            STATEMENT OF MAJOR GENERAL GALE POLLOCK

    General Pollock. Chairman Waxman and distinguished members 
of the committee, thank you for providing me the opportunity to 
address you on this very important subject.
    I am Gale Pollock, acting Surgeon General of the Army and 
commander of the U.S. Army Medical Command. I am here today to 
discuss the array of behavioral health services designed to 
support our warriors and their families.
    The U.S. Army Medical Command is an imperfect organization. 
The 34 military treatment facilities over which I exercise 
command authority are all imperfect organizations. They make 
mistakes. Despite cutting-edge technology, health care still 
remains as much art as science. Sometimes, despite our best 
efforts and the best care, our patients still have tragic 
outcomes.
    Whenever we have less than optimal outcomes, it affects 
every one of us. To the soldiers and their family members on 
the first panel, I paused after the panel to extend my 
condolences for the pain and suffering that they have gone 
through and I thanked them for their courage to testify today, 
and I thank you, because, although the U.S. Army Medical 
Department is an imperfect organization, we are, more 
importantly, a striving organization, because we strive to be 
perfect. We strive to improve every day and with every patient 
encounter. These tragic stories give us the opportunity to 
examine our systems and processes and do everything possible to 
ensure that, whenever possible, these mistakes are not 
repeated.
    After every sub-optimal outcome, our team can evaluate 
their performance, assess our processes, and determine if we 
can improve any aspect of the care we provide.
    On the battlefield, we know that the majority of our 
casualties die from loss of blood. Our clinicians and 
researchers focus their considerable intellect and effort on 
this reality and developed equipment, techniques, and 
procedures to save lives. The result is that 91 percent of 
warriors injured on the battlefield survive their wounds, and 
this rate of survival is unprecedented in the history of 
warfare. Yet, it is still not perfect, and our researchers and 
experts continue to strive to find better ways to provide 
higher quality battlefield care, to develop better products to 
stop bleeding, and to conduct better training to save more 
lives.
    We are equally committed to saving lives and improving 
lives where the injuries are not visible. Although an array of 
behavioral health services were available to our beneficiaries 
before the global war on terror began, we have steadily 
improved over the past 5 years as the identified needs of our 
populations have changed.
    Since the attacks on 9/11, the post-deployment health 
assessment was revised and updated, and in the fall of 2003 we 
launched the first mental health advisory team into theater. 
Never before had the mental health of combatants been studied 
in a systematic manner during conflict. Three subsequent mental 
health advisory teams in 2004, 2005, and 2006 continued to 
buildupon the success of the original and further influence our 
policies and procedures, not only in theater but before and 
after deployment, as well.
    Based on those recommendations, we have increased the 
distribution of behavioral health providers and expertise 
throughout the combat theater, and access to care and quality 
of care have improved as a result.
    In 2004, researchers at the Walter Reed Army Institute of 
Research published initial results of a ground-breaking land 
combat study which provided insights related to the care and 
treatment of soldiers upon return from combat experiences, and 
led to the development of the post-deployment health 
reassessment.
    In 2005, the Army rolled out the post-deployment health 
reassessment to provide soldiers with the opportunity to 
identify any new physical or behavioral health concern that 
they were experiencing that was not present immediately after 
their redeployment. This assessment includes an interview with 
a health care provider and has been very effective for 
identifying more of the soldiers, but, unfortunately, not all, 
who are experiencing some of the symptoms of stress-related 
disorders, and getting them the care they need before their 
symptoms manifest into more serious problems.
    We continue to review the effectiveness of this process and 
will add or edit questions as needed.
    In 2006, we piloted a program at Fort Bragg, NC, intended 
to reduce the stigma, of which many of us are very aware. The 
RESPECT.MIL pilot program integrated behavioral health into the 
primary care setting, providing education, screening tools, and 
treatment guidelines to the primary care providers. It has been 
so successful at Fort Bragg that we are currently rolling that 
program out to 15 other sites across the Army.
    Also in 2006 the Army incorporated the deployment cycle 
support program with a new training program called battle mind. 
Prior to this war, there had been no empirically validated 
studies to mitigate combat-related mental health problems, so 
we have been evaluating the post-deployment assessments and 
training now using scientifically rigorous methods with good 
initial results. It is a strength-based approach that 
highlights the skills that help soldiers survive in combat, 
instead of focusing on the negative effects of combat.
    Our striving has continued in 2007, because we have 
expended battle mind training with modules for pre-deployment 
training and for spouses. Our behavioral health Web site went 
live in March, and I stood up a behavioral health proponency 
office specifically to deal with these issues. A new PTSD 
training course starts in June, and, as you noted, the 
preliminary recommendations of the Mental Health Task Force 
were released in May, with a final report expected this summer.
    Traumatic brain injury is emerging as a common blast-
related injury. An overwhelming majority of these patients have 
mild and moderate concussive syndromes with symptoms not 
different from those experienced by athletes with a history of 
concussion, but many of these symptoms are similar to post-
traumatic stress symptoms, especially those of difficulty 
concentrating and irritability. However, we must not confuse 
TBI with PTSD. TBI is the result of physical damage to the 
brain, and, as such, requires different screening, diagnosis, 
and treatment approaches. It is important that all providers 
are able to recognize these similarities and consider the 
effect of blast in their diagnosis.
    The Congress has provided incredible financial support to 
allow us to better understand and treat both PTSD and TBI. Let 
me thank you for that and assure you that we will invest the 
money in a focused manner that allows us to make a difference 
in the lives of soldiers, sailors, marines, and airmen 
immediately.
    The Army and the Army Medical Department are committed to 
provide a level of care, physical, emotional, and spiritual, 
that is equal to the quality of service provided by these great 
warriors. We recognize our imperfections and are striving daily 
to improve.
    I look forward to your questions.
    Chairman Waxman. Thank you very much.
    Dr. Fairbank, before I call on you, you might have heard 
the bells. That indicates that a vote is on the House floor. We 
are going to have to respond to those votes. There are four 
votes. I think we had better anticipate reconvening at maybe 
1:45. That will give you a chance to get something to eat, and 
then we will meet back in this room at 1:45. We will hear from 
you and then we will have questions for all of you.
    Thank you. We stand in recess.
    [Recess.]
    Chairman Waxman. The committee will come back to order.
    Dr. Fairbank, we would like to hear from you.

                 STATEMENT OF JOHN A. FAIRBANK

    Dr. Fairbank. Thank you. Good afternoon, Mr. Chairman and 
members of the committee. Thank you for the opportunity to 
testify on behalf of the members of the National Academy of 
Science's Committee on Veterans Compensation for Post-Traumatic 
Stress Disorder.
    Our committee recently completed a report entitled PTSD 
Compensation and Military Service that addresses topics under 
consideration in this hearing. I am here today to present a few 
of the conclusions of that report and to share my experience as 
a former VA psychologist and as a researcher on PTSD and 
veterans' health. These remarks are a summary of my written 
testimony.
    I was asked to address whether there has been adequate 
preparation for the men and women returning home from Operation 
Iraqi Freedom and Operation Enduring Freedom. Our committee's 
report made several recommendations relevant to this question. 
Specifically, our review of the scientific literature and VA's 
current compensation and pension practices identifies areas 
where changes might result in more consistent and accurate 
ratings for disability associated with PTSD.
    There are two primary steps in the disability compensation 
process for veterans. The first of these is a compensation and 
pension [C&P], examination. Testimony presented to my committee 
indicated that clinicians often feel pressured to severely 
constrain the time that they devote to conducting a PTSD 
examination. The committee believes that the key to proper 
administration of VA's PTSD compensation program is a thorough 
C&P clinical examination conducted by an experienced mental 
health professional.
    Many of the problems and issues with the current process 
can be addressed by consistently allocating and applying the 
time and resources needed for a thorough examination. The 
committee recommended that a system-wide training program be 
implemented for the clinicians to conduct these exams in order 
to promote uniform and consistent evaluations.
    The second primary step in the compensation process is a 
rating of the level of disability associated with a veteran's 
service connected disorders. The committee's review of VA's 
ratings practices found that the criteria used to evaluate the 
level of disability resulting from service-connected PTSD were, 
at best, crude and overly general. It recommended that new 
criteria be developed and applied.
    As part of this effort, the committee suggested that VA 
take a broader and more comprehensive view of what constitutes 
PTSD disability. The committee believes that the current 
criteria unduly penalize veterans who may be capable of working 
but who are significantly symptomatic or impaired in other 
dimensions and may thus serve as a disincentive to both work 
and recovery.
    In order to promote more accurate, consistent, and uniform 
PTSD disability ratings, the committee also recommended that VA 
establish a certification program for raters who deal with PTSD 
claims. Rater certification should foster greater confidence in 
ratings decisions and in the decisionmaking process.
    Early in my career I was a co-principal investigator for 
the National Vietnam Veterans Readjustment Study [NVVRS], and 
served as a VA staff psychologist working primarily with 
Vietnam War combat veterans. I was asked to comment on what the 
lessons of Vietnam tell us about today.
    First, I would like to make clear that our committee's 
report did not address this topic and that these are my own 
observations.
    The intent of the NVVRS was to provide an empirical basis 
for the formulation of policy related to Vietnam veteran 
psycho-social health, especially PTSD. In a paper, my 
colleagues and I reported that families of veterans with PTSD 
were more likely to suffer domestic violence than the families 
of veterans without PTSD. In addition, we found that children 
of the veterans with PTSD manifested significantly higher 
levels of behavioral and emotional problems than children of 
veterans without PTSD, and that more than one-third of veterans 
with PTSD had a child with behavioral or emotional problems.
    In my opinion, this finding of multiple severe problems in 
the families of veterans with PTSD made 15 years after the end 
of the Vietnam War has important implications for today's 
service men and women returning from OIF/OEF. Specifically, our 
Vietnam era findings suggest that a significant number of 
current members of our armed forces will need access to 
effective treatments for war-related PTSD and its co-morbid 
conditions, and, similarly, their spouses and children will 
need access to trauma informs, treatments, and services.
    A hard lesson learned from our Nation's response to Vietnam 
veterans is that we do not want to delay doing our best to 
prevent war-related PTSD from wreaking havoc on the futures of 
our OIF/OEF veterans and their families.
    An enduring and distressing memory of my work as a VA 
psychologist was trying to help veterans and their spouses 
process and recover from the shock, disappointment, anger, and 
sense of betrayal that so often accompanied denial of benefits 
or compensation for the psychological and emotional toll that 
war zone stress had taken on their lives in the form of PTSD. 
More often than not, a profound sense of unfairness lay at the 
heart of their reactions.
    The PTSD C&P evaluation disability ratings process has 
improved considerably since the late 1980's, but, as our 
committee's report suggests, much more may be done to enhance 
confidence in PTSD compensation ratings decisions and 
ultimately to improve this process for veterans returning from 
combat and for their families.
    Thank you for your attention. I am happy to respond to your 
questions.
    [The prepared statement of Dr. Fairbank follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.056
    
    [GRAPHIC] [TIFF OMITTED] T6429.057
    
    [GRAPHIC] [TIFF OMITTED] T6429.058
    
    [GRAPHIC] [TIFF OMITTED] T6429.059
    
    [GRAPHIC] [TIFF OMITTED] T6429.060
    
    [GRAPHIC] [TIFF OMITTED] T6429.061
    
    [GRAPHIC] [TIFF OMITTED] T6429.062
    
    Chairman Waxman. Thank you very much, Dr. Fairbank.
    I am going to start off the questions. I want to see if I 
can understand the scope of this problem and, of course, 
whether DOD and Veterans Administration are prepared for it.
    The results of surveys done by the Army and the Department 
of Defense are alarming. A comprehensive analysis conducted in 
2003 estimated 13 percent of soldiers returning from war in 
Iraq and Afghanistan had PTSD. Doctor Insel referred domain to 
this estimate in his testimony. We know that there are about 
1.5 million troops that have been deployed to Iraq and 
Afghanistan. Just doing the simple math, this suggests that 
approximately 160,000 troops will return home needing treatment 
for PTSD.
    Dr. Insel, does that figure sound right to you?
    Dr. Insel. As far as we know, I think that is right, but I 
want to point out that we are at the early stages. What we 
learned in Vietnam is this takes a sometimes unpredictable 
longitudinal course, and that there are people who developed 
the disorder sometimes months, sometimes years after they 
returned from service. So one needs to be a little cautious 
with any of the percentages that we are working with at this 
point.
    Chairman Waxman. Yes.
    Dr. Kilpatrick and General Pollock, is this consistent with 
the DOD and the Army, what you are seeing?
    Dr. Kilpatrick. Again, I think it is very important to 
understand what the statistics that are being quoted. As we are 
taking a look at our screening processes, both the research 
studies done in theater and the studies on the post-deployment 
health assessment, we are looking at people answering questions 
in a positive way that would indicate that they need further 
evaluation to make a diagnosis of PTSD.
    The screening questions that are being asked are not 
diagnostic questions, and so I think that percentage needs to 
then say the next step, what do we know as far as the number of 
those people who are actually diagnosed with PTSD. I think, as 
you just heard from Dr. Fairbank, that diagnosis is not one 
that can be done quickly. It may take an hour. It may take 
several days. I think, as Dr. Insel has just said, the symptoms 
today going through that diagnostic workup may not be diagnosed 
as PTSD, end up several years later perhaps being diagnosed as 
PTSD.
    So I think that this is a very hard area to try to identify 
quickly. We have no----
    Chairman Waxman. Identify it quickly or quantify the number 
that----
    Dr. Kilpatrick. I think to try to quantify it is very 
difficult because it is going to be an evolving process. I 
think people screening positive we have to understand is 
different than people being diagnosed, and then people being 
diagnosed, we have to really understand the extent of their 
illness, how severe it is and whether it is in the chronic 
phase, or hopefully with our processes for identifying it early 
and being able to----
    Chairman Waxman. What we heard from the first panel is that 
a lot of them feel it is a stigma to come forward and to 
indicate that they might be suffering from mental illness.
    General Pollock, did you want to jump in on that?
    General Pollock. Yes, sir. It is because of the stigma that 
I would be unwilling to even estimate what numbers are, because 
until we are able to eliminate the stigma, people who are 
suffering won't come forward, whether it is for fear of letting 
their buddies down, fear of being seen as weak, fear of what 
will happen to my career. If something happens to my career, 
how will I take care of my family? Well, I can just tough 
through this. I am Army strong.
    There are so many factors right now that are affecting 
that, and, until we are able to reduce that stigma, those 
numbers are going to be, I am afraid, just guesses.
    Chairman Waxman. Well, the stigma is a problem, but it 
seems to me the Army and the Veterans Administration need to 
figure out how to ask questions that go to the symptoms so that 
they are not stigmatizing by saying do you have post-traumatic 
syndrome of one sort of another.
    General Pollock. I agree, sir. One of the things that we 
are doing now--and this is a new piece. I mentioned before we 
are always trying to add something new to make it better. We 
are working on a leader training program, a leader being 
because at any point in time a soldier can be placed into a 
leadership position, so it is not for senior leaders, it is for 
every soldier, to say these are the symptoms, these are some of 
the ways that another soldier, one of your buddies can manifest 
that they may be suffering from PTSD. This is how you can 
recognize it. This is what you can do to help them.
    Just like you would watch their back if you were out on a 
battlefield, you continue to watch their back and help each 
other.
    We are doing more work with the spouses now and encouraging 
the spouses to come in when we do the 3 to 6 month reassessment 
to say have you noticed anything different. Is it harder for 
you to get along? Is there more stress in the family? So we can 
really bring people in so they get permission to talk about it.
    We are trying to move forward, but I submit the stigma 
piece will continue to be a challenge. And then, as we erase 
that, it will look like our numbers are much larger, because 
then people are willing to admit, yes, I think I would like 
some help.
    But the point that Dr. Insel made early this morning with 
the fact that we have inadequate behavioral health 
professionals across our Nation, we can break down the stigma, 
but if we don't have people who can step up and assist, have we 
really done anything? I really think that we need as a Nation, 
not just as a military, to look at how can we get more people 
into behavioral health so that we can serve the needs of the 
men and women of America, not just the men and women in the 
military.
    Chairman Waxman. Thank you very much.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I am going to start with Dr. Kilpatrick. You had a lot of 
superlatives in your presentation, and I was a little surprised 
that there were quite as many of them as there were, terms like 
robust and touting surveillance programs, pre-deployment health 
assessments since 1998, mental health care in theater, the use 
of multi-faith chaplains, etc., is in your testimony.
    How do you explain the first panel? General Pollock I think 
did a very good job of saying, look, we make mistakes, things 
fall through the cracks. You didn't do that in your testimony. 
I was a little surprised that, in light of what we are looking 
at here and some potentials for falling through the cracks, 
that it was sort of, gee, this thing says nothing is broken.
    Dr. Kilpatrick. Again, let me kind of start with saying 
that the programs we have in place are programs that the DOD 
has never had before. In the Gulf war we had nothing 
electronic, and today we do. I think that is a major step 
forward. The fact that we are able to track and say where 
people are, what are their medical problems, I think is a major 
advance.
    Mr. Issa. I think it is important and it is major, but I 
did a little back on the envelope, and you have 400 
psychiatrists and psychologists on staff at DOD?
    Dr. Kilpatrick. If we look throughout DOD, you can see that 
number, but I think that----
    Mr. Issa. That would be approximately what it would take if 
you took a couple of hours for pre-deployment evaluation or 
base-level evaluation and then a followup post, without in 
theater and without any other psychiatric work, just short of 
doing 250 people a day or 250 days in the year, roughly four 
people a day.
    I am going through the math and saying I bet you don't have 
400 psychiatrists and psychologists that are doing it just for 
those before they deploy and after they get back, so what do 
you need and why is it you are not here saying that inherently 
the resources necessary to provide the kind of pre-evaluation 
where we wouldn't be deploying people who are at high risk and 
the kind of evaluation coming back so they wouldn't have 
tragedies like we saw in the first panel? Why is it you are not 
asking for those kind of resources?
    Dr. Kilpatrick. Again, I think as we take a look at what 
are the resource requirements we are really looking at the 
Mental Health Task Force. We believe that they have spent a 
year and a half or over a year looking at this with all the 
data that we could make available to them. Their early report, 
as you have seen, says that there are inadequate resources--
mainly people is what they are talking about--to be able to do 
this.
    The question is, where do we have----
    Mr. Issa. Right, and I am thrilled that they have done this 
kind of work and I am thrilled that the Veterans 
Administration, which, as I understand, is the best health care 
delivery system in America, public or private, sought to make 
it better.
    Again I am going to go on to General Pollock, but I would 
really hope that when you testify before Congress you come with 
the problems, not just the superlatives.
    Dr. Pollock, or General Pollock--both titles are good, and 
you certainly earned the stars--in the first panel, which you 
were here for, what we saw were things that I remember from my 
days as an enlisted man and as a young officer. We saw people 
who had, in the case of Specialist Smith, he had a profile that 
kept him from performing his mission, then he was deployed, 
came back with symptoms, mental health problems that may or may 
not have been IED related, and today he is still an active duty 
specialist and still in a sense in denial that he can't do the 
job.
    The likelihood is that, as long as he can't carry a weapon 
and needs medication, he is not going to be able to do it. How 
are we getting people out of what I call the penalty box or the 
suspension box, the idea that you are on a profile, your 
promotions are going to be reduced, your ability to do the 
things it takes for a career aren't going to be there, and yet 
he has quite a few years in limbo, to use an old Catholic term.
    General Pollock. I think we are making progress on that, 
and we started at Walter Reed. One of the things that we were 
very concerned about was the lack of continuity of care when 
they were outpatients. How were we really being accountable for 
them? That was also evidenced by the tragedy that the parents 
talked about.
    So now we have put together a triad, so we have a nurse 
case manager to make sure that all the pieces and the 
appointments and the coordination that needs to be done for 
that soldier in their care is occurring.
    We have either a sergeant or a company commander, so we 
will have a platoon sergeant and a squad sergeant so that we 
don't have more than 12 of the soldiers, warriors in 
transition. So whether they were battle injuries or other 
illnesses or a training injury, if they are going to require a 
profile and can't be immediately sent back to duty, they will 
be assigned to a warrior transition unit.
    Mr. Issa. Are these like the wounded warrior facilities at 
Camp Pendelton and Quantico?
    General Pollock. Yes. And by doing that, their purpose 
then, the focus of their day will be to get well and to 
participate in the care that they need, and with the other 
staff there to help them get through the process and to 
understand why they are waiting 2 weeks between a behavioral 
health appointment. Is it that people aren't available? No. It 
is because you have homework that you have to do. There are 
pieces that you have to pay attention to.
    So I think that we are going to fix that. And then the 
stress that Specialist Smith was under inside his unit--you 
need to go again, tough it up, let's go again--we are going to 
be allowing the commanders of those units to say this person is 
not deployable, they have a profile. We'd like to transition 
them to the warrior transition unit so that I can have the fill 
of my unit of the health, ready-to-go folks so that we can just 
train to go back and do what we need to do.
    That is going to correct quite a bit of this problem.
    Chairman Waxman. Thank you very much, General Pollock.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    We have heard a lot today about the deployments, length of 
deployments and the redeployments and the shortened dwell time 
and, in the case of the specialist we had here, as short as 8 
months between deployments, and the impact that has on 
families, but also on mental health.
    I would like to address Dr. Fairbank. I know it is not your 
job to tell the military how to fight wars, but, from a 
clinical perspective, could you tell us what the impact of all 
of these lengthened deployments, shortened dwell times, and the 
multiple deployments will have on the soldiers' mental health, 
whether or not they end up as clinically PTSD or in some other 
way affected mentally?
    Dr. Fairbank. I can address it from two perspectives. What 
we know from the National Vietnam Veterans Readjustment Study, 
where we looked at the number of months that a service member 
served in the Vietnam theater of operations, when you start at 
the 12-month mark and go on out, there is basically a dose 
response relationship between time in theater and prevalence of 
TPSD.
    So, for example, I believe the prevalence rate is about 
13.5 percent for men and women who served--well, men 
primarily--who served 12 months. Thirteen months to 23 months, 
it is about 18.5 percent. Those who served 2 years or more, it 
starts to get up to 19, 20 percent PTSD prevalence.
    So we even know from the Vietnam era that there is a strong 
relationship between time in theater and very likely the level 
of exposure to the types of traumatic events that are related 
to development of PTSD.
    The second observation I would have is that, when I was 
working at the Jackson VA Medical Center from 1979 to 1987, 
basically every day working with Vietnam veterans and other era 
veterans with PTSD, the most complex and refractory cases that 
I saw were veterans with three or more tours. They were, by 
far, the most memorable cases of individuals that I worked 
with.
    Mr. Yarmuth. Clarify something for me. When we are talking 
about PTSD, I am sure there is a wide range of the 
manifestation of PTSD in terms of how disabling it can be----
    Dr. Fairbank. Right.
    Mr. Yarmuth [continuing]. And the severity of symptoms, and 
so forth. I mean, not having served in combat, I would assume 
that anyone who has been in a combat situation, has seen what 
specialists Smith and Bloodworth described to us this morning, 
would be in some way affected adversely mentally, and I can't 
imagine the opposite.
    So when we are talking about this, does prolonged 
experience increase the severity of it and the disabling 
aspects of it? For instance, when Specialist Smith was sent 
back and clearly was having a problem before his second 
deployment, how much does that exacerbate the situation?
    Dr. Fairbank. Well, I think it was Mr. Smith who very 
vividly described what it was like being on patrol every day, 
the threat that he was facing each day, the sniper fire, the 
IEDs. That would clearly qualify as high level of exposure to 
war zone stress, traumatic stress.
    So both of the service members who testified presented 
pretty clear evidence that, while they were there, they were 
under high levels of traumatic stress exposure.
    What we do know from the research is that there is a dose 
response relationship that the higher the level of exposure to 
trauma, the greater the risk for developing not only PTSD but a 
wide range of other often co-morbid conditions like substance 
use, dependence, abuse, major depression, other types of 
anxiety disorders.
    So there is a relationship between the level of exposure. 
So to the extent that these multiple tours and extended tours 
increase one's level of exposure to the types of things that 
they describe, the probability of developing these adverse 
psychological reactions increases.
    Mr. Yarmuth. I have a quick question I want to get in for 
General Pollock. I appreciate your assessment of the 
imperfection of the system, and so forth. When we are talking 
about these deployments and the shortened dwell times, we all 
know, by reading news accounts and so forth, that our armed 
forces are strained. Because we don't have enough people to 
send to the theater, we are sending people in ways that we 
don't ordinarily do. Are we treating PTSD patients and affected 
soldiers and others differently than we would because of the 
fact that we are strained, we are stressed so much for our 
personnel in the service? Are we doing things that we 
ordinarily wouldn't do?
    General Pollock. The way that we are treating the patients 
really depends on how they present. Again, I have great 
concerns that it is related to the stigma, because they are not 
often willing to tell us what is really going on for them. They 
are bonding with their soldier colleagues. If I go tell too 
many people about this, they will put me on a profile and I am 
going to have abandoned my buddies. I would rather stay with my 
buddies.
    So they don't always tell us. That is why the different 
types of training that we are trying to get out now and the 
different venues to get through so that they are all supporting 
one another better I think will be helpful. But it is just 
going to be very, very difficult, but we are going to keep 
after it.
    Mr. Yarmuth. Thank you.
    Chairman Waxman. Thank you very much, Mr. Yarmuth.
    We have votes on the House floor, and I gather this vote is 
a very close one. I was willing to miss it. But I don't want to 
ask the panel to stay here and wait for us to come back. I 
thank you for being here and giving us your testimony. We would 
like to send you additional questions in writing and have you 
respond in writing for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6429.063
    
    [GRAPHIC] [TIFF OMITTED] T6429.064
    
    [GRAPHIC] [TIFF OMITTED] T6429.065
    
    [GRAPHIC] [TIFF OMITTED] T6429.066
    
    [GRAPHIC] [TIFF OMITTED] T6429.067
    
    [GRAPHIC] [TIFF OMITTED] T6429.068
    
    [GRAPHIC] [TIFF OMITTED] T6429.069
    
    [GRAPHIC] [TIFF OMITTED] T6429.070
    
    [GRAPHIC] [TIFF OMITTED] T6429.071
    
    [GRAPHIC] [TIFF OMITTED] T6429.072
    
    Chairman Waxman. We need to, of course, deal with this 
problem. It is an enormous public health threat. Our brave men 
and women are putting their lives on the line, need us to be 
there for them. I know you are all trying to do the best you 
can. We are here to work with you to be sure we do the job. 
Working with you may be to give you a push, but also to give 
you the resources and ability to follow through.
    Thank you very much for being here. That concludes our 
hearing and we stand adjourned.
    [Whereupon, at 2:15 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6429.073

[GRAPHIC] [TIFF OMITTED] T6429.074

[GRAPHIC] [TIFF OMITTED] T6429.075

[GRAPHIC] [TIFF OMITTED] T6429.076

[GRAPHIC] [TIFF OMITTED] T6429.077

[GRAPHIC] [TIFF OMITTED] T6429.078

[GRAPHIC] [TIFF OMITTED] T6429.079

[GRAPHIC] [TIFF OMITTED] T6429.080

[GRAPHIC] [TIFF OMITTED] T6429.081

[GRAPHIC] [TIFF OMITTED] T6429.082

[GRAPHIC] [TIFF OMITTED] T6429.083

[GRAPHIC] [TIFF OMITTED] T6429.084

[GRAPHIC] [TIFF OMITTED] T6429.085

[GRAPHIC] [TIFF OMITTED] T6429.086

                                 <all>

</pre></body></html>
